DEPARTMENT OF STATE OFFICE OF INSPECTOR GENERAL                                                                                                           If you suspect Fraud, Waste, Abuse, or Mismanagement in the Department of State, please contact:



                   Vision: To be a world-class organization promoting effective
                   management, accountability, and positive change in the
                   Department of State, the Broadcasting Board of Governors, and
                   the foreign affairs community.



DEPARTMENT OF DEFENSE OFFICE OF INSPECTOR GENERAL


                  Vision: "One professional team strengthening the integrity,
                  efficiency, and effectiveness of Department of Defense
                  programs and operations."




 On the Cover:
 We have chosen the Statue of Freedom from the United States Capitol as a symbol to be reflected in our report
 covers.

 The bronze Statue of Freedom was designed by American sculptor Thomas Crawford in 1857-1859. Crawford                                                  If you suspect Fraud, Waste, Abuse, or Mismanagement in the Department of Defense, please contact:
 described his creation as being readily understandable by the American people:
   I have endeavored to represent Freedom triumphant __ in Peace and War . . . In her left hand she holds the olive                            D E PA R T M E N T O F D E F E N S E
   branch while the right hand rests on a sword which sustains the Shield of the United States. These emblems
                                                                                                                                                                                             To report fraud, waste, mismanagement, and abuse of authority.


                                                                                                                                               hot line
   are such as the mass of our people will easily understand . . . I have introduced a base surrounded by wreaths
   indicative of the rewards Freedom is ready to bestow . . .
                                                                                                                                                                                             Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
 Allen, William C. , The Dome of the United States Capitol: An Architectural History. Prepared under the Direction of George M. White, FAIA,                                                 Phone: 800.424.9098         e-mail: hotline@dodig.mil       www.dodig.mil/hotline
 Architect of the Capitol, U.S. Government Printing Office Washington: 1992
UNCLASSIFIED
          Page intentionally left blank




2   Interagency Assessment of Afghanistan Police Training and Readiness
                                                          UNCLASSIFIED


Table of Contents

Executive Summary………………………………………………………………………………. 1
     Key Judgments....................................................................................................................... 1
     Summary of Recommendations............................................................................................. 2
Background and Overview……………………………………………………………………….. 5
     End State of Police Program .................................................................................................. 5
     Program Description .............................................................................................................. 5
     Afghan Police Program Funding ........................................................................................... 6
     German and U.S. Police Training Programs.......................................................................... 7
     U.S. Military Put in Charge of Police Program ..................................................................... 8
     Assessment............................................................................................................................. 8
Afghan National Police tructure…………………………………………………………………11
                                                                                                                                               10
     The Tashkil – the Government of Afghanistan’s Afghan National Police Program ........... 11
     Rebalancing Afghan National Police Force Structure ......................................................... 11
     Personnel Numbers – Unreliable ......................................................................................... 11
     Counternarcotics Programs.................................................................................................. 12
Afghan National Police Readiness……………………………………………………………… 14
     Direction of the Afghan National Police Program............................................................... 17
Training Program Assessment………………………………………………………………….. 19
     Overview of the Afghan National Police Training Program ............................................... 19
     Recruiting............................................................................................................................. 20
     Vetting.................................................................................................................................. 20
     Assignment and Deployment............................................................................................... 21
     Retention and Attrition ........................................................................................................ 22
     Afghan National Police Recruit Profile ............................................................................... 22
     Evaluation of DynCorp Police Trainers............................................................................... 24
     Mentor Program ................................................................................................................... 25
Police Reform…………………………………………………………………………………… 27
     Pay and Rank Reform .......................................................................................................... 27
     Pay Distribution ................................................................................................................... 28
     Rebalancing Police Forces................................................................................................... 28
Command and Control………………………………………………………………………….. 30
Afghan National Police Internal Affairs/Inspector General……………………………………. 33
Contract Program Management Issues………………………………………………………….. 34
     No Contracting Officer’s Representative............................................................................. 35
     Contract Administration....................................................................................................... 36
     Contract Clarification Needed ............................................................................................. 36
     Security Situation Requires Responsive Contract Management ......................................... 37
Department of State Reporting………………………………………………………………….. 38
Policy Support for Program Adjustments………………………………………………………. 40
Equipment Procurement and Management……………………………………………………… 42
     Procurement Chain............................................................................................................... 43
     Equipment Fielding Plan...................................................................................................... 44


Interagency Assessment of Afghanistan Police Training and Readiness                                                                        i
     Equipment Logistics ............................................................................................................ 46
     Equipment Distribution........................................................................................................ 47
     Equipment Maintenance ...................................................................................................... 47
     Equipment Accountability ................................................................................................... 48
     Logistics Internal Control Training and Mentoring............................................................. 49
Looking Ahead………………………………………………………………………………….. 50
     The Future of the Central Training Center and Regional Training Centers ........................ 51
     Afghan Judicial System and the Afghan National Police.................................................... 51
     Future of U.S. Government Role ......................................................................................... 53
Conclusion………………………………………………………………………………………. 55
Informal Recommendations…………………………………………………………………… 56
Abbreviations…………………………………………………………………………………… 59
Appendix A: The Environment for the Police Program………………………………………… 60
Appendix B: Police Training Curriculum………………………………………………………. 63
Appendix C: Rank and Pay Reform…………………………………………………………….. 68
Appendix D: Principal Interlocutors and Organizations Visited………………………………... 71
Appendix E: Scope and Methodology…………………………………………………………... 73
Appendix F: U.S. Embassy Kabul Comments…………………………………………………...75
Appendix G: Combined Security Transition Command – Afghanistan (CSTC-A) Comments 78
Appendix H: Bureau of International Narcotics and Law Enforcement Affairs (INL –
Department of State) Comments…………………………………………………………………84
Appendix I: Management Response Letter from Assistant Secretary of Defense for International
Security Affairs (ASD/ISA)…………………………………………………………………….. 90
Appendix J: U.S. Central Command Comments……………………………………………….. 94




ii                                   Interagency Assessment of Afghanistan Police Training and Readiness
                                        UNCLASSIFIED


Executive Summary

Key Judgments

•   The U.S.-funded program to train and equip the Afghan National Police (ANP) is generally
    well conceived and well executed. However, long-term U.S. assistance and funding, at least
    beyond 2010, is required to institutionalize the police force and establish a self-sustaining
    program.

•   The U.S. Ambassador is responsible for policy guidance; the Commander, Combined Forces
    Command-Afghanistan (CFC-A) executes the police program through the Combined
    Security Transition Command-Afghanistan (CSTC-A). The senior embassy and military
    leaders have excellent relations and work together well to administer and improve the police
    program.

•   Building the Afghan National Police (ANP) requires a comprehensive, integrated approach
    that encompasses leadership training, sustaining institutions and organizations, and oversight
    and internal control mechanisms. As it has rapidly evolved, police readiness requirements
    have expanded beyond training to include sweeping institutional reform of the ANP through
    the Ministry of Interior.

•   Nevertheless, ANP’s readiness level to carry out its internal security and conventional police
    responsibilities is far from adequate. The obstacles to establish a fully professional ANP are
    formidable. Among them are: no effective field training officer (FTO) program, illiterate
    recruits, a history of low pay and pervasive corruption, and an insecure environment.

•   The mentoring program is a key component to effect institutional change and build a capable,
    self-sustaining national police force. To reach its full potential, the mentoring program
    should be expanded and better managed to achieve program objectives.

•   Management of the police training contract is problematic and requires more effective
    coordination between State Department contract managers and CSTC-A, which is
    responsible for executing ANP training programs.

•   The procurement pipeline to Afghanistan for ANP equipment is slow, but is improving.
    There is inadequate accountability for equipment after it is turned over to the ANP, because
    the ANP logistics system is not yet effective. The ANP needs to establish and implement an
    effective end-to-end internal controls process.

•   Until the Afghan criminal justice system, including law enforcement, judiciary, and
    corrections, has matured and is synchronized and coordinated from the national to the local
    level such that laws are standardized and uniformly applied, the ANP will function more as a
    security force than as a law enforcement organization.




Interagency Assessment of Afghanistan Police Training and Readiness                            1
                                        UNCLASSIFIED


•   The U.S. and international effort for standing up the ANP is not limitless; therefore,
    transitioning full responsibility and authority to the MoI needs greater emphasis.

•   Building an effective ANP program will require a long-term commitment from coalition and
    international partners. Premature withdrawal from this commitment will compromise the
    progress already accomplished and put at risk the U.S. goal to establish a professional police
    force embracing the values and practices of community policing and the rule of law.

Summary of Recommendations

Recommendation 1. The Bureau of International Narcotics and Law Enforcement Affairs, in
 coordination with Combined Security Transition Command – Afghanistan and international
 partners, should develop, staff, and implement a comprehensive international police mentor
 program for Afghanistan. This program must coordinate international mentoring and training
 at local police districts, both inside the station house and on patrol, and describe procedures to
 track equipment and communicate issues, needs, and problems to the Combined Security
 Transition Command – Afghanistan and the Bureau of International Narcotics and Law
 Enforcement Affairs. (Action: INL, in coordination with CSTC-A)

Recommendation 2. Embassy Kabul, in coordination with the Combined Security Transition
 Command – Afghanistan and in consultation with the Ministry of Interior, should produce a
 document that clarifies the command relationships between regional training centers, border
 police, standby police, and highway police in relation to the regional and provincial
 commanders. (Action: Embassy Kabul, in coordination with CSTC-A)

Recommendation 3. Embassy Kabul, in coordination with the Combined Security Transition
 Command – Afghanistan, should work closely with the Ministry of Interior to establish an
 independent Afghan internal affairs and/or inspector general office to investigate allegations of
 bribery, embezzlement, fraud, and other forms of wrongdoing within the Afghan National
 Police, and to conduct audits and inspections. (Action: Embassy Kabul, in coordination with
 CSTC-A)

Recommendation 4. The Bureau of International Narcotics and Law Enforcement Affairs
 should assign a qualified contracting officer’s representative on a permanent basis to Embassy
 Kabul to improve program management of the police training contract in support of the U.S.
 military command in charge of the police training program, the Combined Security Transition
 Command – Afghanistan. (Action: INL)

Recommendation 5. The Bureau of Administration, in coordination with the Bureau of
 International Narcotics and Law Enforcement Affairs, should provide the Combined Security
 Transition Command – Afghanistan and Embassy Kabul, as executors of the Afghan Police
 Program contract, a copy of the current contract task orders, Statement of Work, and
 modifications. (Action: Bureau of Administration, in coordination with INL)




2                          Interagency Assessment of Afghanistan Police Training and Readiness
                                        UNCLASSIFIED




Recommendation 6. The Combined Security Transition Command – Afghanistan, in
 coordination with the Bureau of International Narcotics and Law Enforcement Affairs and
 Embassy Kabul, should develop a formal memorandum of agreement to describe the positions,
 conditions, and process by which DynCorp will replace the temporary MPRI advisors to the
 Ministry of Interior. (Action: CSTC-A, in coordination with INL and Embassy Kabul)

Recommendation 7. Embassy Kabul should reorganize its International Narcotics and Law
 Enforcement Affairs office to improve coordination, communication, program management,
 and policy implementation. (Action: Embassy Kabul)

Recommendation 8. Embassy Kabul, in coordination with the Bureau of International
 Narcotics and Law Enforcement Affairs, should publish an updated analysis and description of
 the police training and readiness program policies including a description of the
 counterinsurgency role of the Afghan National Police, the revised fielding plan, the dissolution
 of the highway police, and coordination with donor nations and the United Nations
 Development Program as the implementing agency for the Law and Order Trust Fund for
 Afghanistan. (Action: Embassy Kabul, in coordination with INL)

Recommendation 9. The Combined Security Transition Command – Afghanistan should
  develop and implement a comprehensive method to verify Afghan National Police equipment
  accountability and readiness that may include international and U.S. mentors.
 (Action: CSTC-A)

Recommendation 10. The Combined Security Transition Command – Afghanistan, in
 coordination with Embassy Kabul and in consultation with the Ministry of Interior, should
 develop and implement an internal control training program and develop Afghan National
 Police logistics officers to improve logistics flow and provide accountability safeguards for
 equipment. (Action: CSTC-A, in coordination with Embassy Kabul)

Recommendation 11. Embassy Kabul, in coordination with the Bureau of International
 Narcotics and Law Enforcement Affairs, should develop and submit for review in Washington
 a plan that will link key components of the rule-of-law spectrum – police, prosecutors, defense
 lawyers, judges, courts, and prisons – to the training and reform initiatives in order to build
 capacity from the national to the provincial levels to ensure that these sectors advance the rule
 of law in Afghanistan. (Action: Embassy Kabul, in coordination with INL)

Recommendation 12. Embassy Kabul, in coordination with the Combined Security Transition
 Command – Afghanistan and in consultation with the Ministry of Interior, should continue to
 develop a comprehensive master plan with appropriate milestones for the transition of U.S.
 government-sponsored programs and facilities for the Afghan National Police to Ministry of
 Interior control and responsibility. (Action: Embassy Kabul, in coordination with CSTC-A)




Interagency Assessment of Afghanistan Police Training and Readiness                              3
                                        UNCLASSIFIED

   The interagency assessment took place in Washington, DC, between April 24 and May 30,
2006, and in Kabul, Kandahar, Jalalabad, Mazar-e-Sharif, Kunduz, and Bamiyan, Afghanistan,
between June 1 and 22, 2006.

    The interagency Office of Inspector General (OIG) assessment team (hereafter referred to as
the assessment team) included:

          Department of State OIG                          Department of Defense OIG
Ambassador Morris N. Hughes, Team Leader           Mr. Joe A. Baker, Deputy
Mr. John Jones                                     COL David Shaw, USAR
Mr. Anthony Carbone                                LtCol Joseph Russell, USMC
Mr. Lawrence Lesser                                YN1 Willie Reid, USN

    This assessment was a self-initiated evaluation of the U.S. government effort to train and
develop the ANP. The assessment focused on the plans and programs in place for training the
ANP and an examination of the effectiveness of coordination and cooperation between those
Department of State and Department of Defense organizations responsible for developing,
implementing, and conducting police training. The assessment team did not examine the process
by which policy decisions were reached on the structure of the Afghan Police Program (APP),
nor the policy decisions themselves.

    As with all reconstruction and stabilization efforts in Afghanistan, the coalition programs to
develop the ANP are continually evolving. The cutoff date for this assessment is June 22, 2006
– the day the interagency assessment team departed Afghanistan. The report does not reflect
subsequent events or developments.




4                          Interagency Assessment of Afghanistan Police Training and Readiness
                                                UNCLASSIFIED


Background and Overview

End State of Police Program

        The intended end state of the U.S.-funded APP is an effective, well-organized,
professional, multiethnic national police force that is trained and equipped to provide a safe and
secure environment for the people of Afghanistan and a force committed to the rule of law. The
ANP need to be led well, paid decent salaries, and trained and equipped to carry out their
assigned security and law and order missions. The program’s goal is to establish a self-
sustaining ANP – a police force able to attract and retain qualified candidates and to operate with
minimal international assistance.

Program Description

        At a Geneva conference on Afghanistan security in April 2002, the United States and
other donor countries agreed to support the rebuilding of the security forces in post-Taliban
Afghanistan. They established a “five pillars” approach, each to be led by a different nation.
The United States took the lead to build the Afghan National Army (ANA). Germany took the
lead for the police sector.1 The Afghans and the coalition partners2 agreed to set the ANP force
ceiling at 62,000, a figure based on a calculation by representatives of the government of
Afghanistan and German planners as to the minimum number that could function effectively and
be supported and financed by the Afghan government over the long term. That figure included
44,300 uniformed police, 12,000 border police, 3,400 highway police, and 2,300
counternarcotics police. During the January 2006 international donors conference in London,
conferees reconfirmed the 62,000 ceiling while adding a standby reaction police force and
adjusting the size of other ANP subdivisions.

        The United States contributes resources to support basic and advanced training and
individual and unit equipment requirements of the ANP. In addition, Embassy Kabul, CSTC-A,
and coalition partners are assisting the Afghan Ministry of Interior in restructuring the ANP. The
restructuring involves improving pay scales and rank structure, general organization, and
deployment strategies to balance security and law enforcement requirements. These ANP
reforms are coordinated with other international donors.

        The assessment team agrees with the embassy and CSTC-A that the approach to
developing the ANP must be comprehensive, including rank and pay reform, as well as training
and equipment. The assessment team also notes that development of the ANP as an effective
law enforcement entity is contingent upon successful establishment of rule of law. “Rule of law
includes the entire legal complex of a modern state, from a constitution and a legislature to
courts, judges, police, prisons, due process procedures, a commercial code, and anticorruption

1
  The other pillars are the justice system (Italy), counternarcotics (Britain), and demobilization, disarmament, and
reintegration (Japan).
2
  As used in this report the term donors refers to nations or organizations that commit support for the reconstruction
of Afghanistan. Coalition partners are nations that commit troops or police for the purpose of maintaining or
developing security.


Interagency Assessment of Afghanistan Police Training and Readiness                                                5
                                           UNCLASSIFIED

mechanisms.”3 A national police force is just one element in the rule-of-law spectrum, and all
elements need to progress nonsequentially for the functioning of a safe, secure, and democratic
environment where rights and liberties of individuals are protected. For example, the court
system must be ready to handle a higher volume of cases as the police make more arrests.

Afghan Police Program Funding

         International donors have financed the bulk of the Afghan budget. The Afghan
government does not have the revenue to pay its police. The international community has
established a mechanism to pay ANP salaries through the Law and Order Trust Fund for
Afghanistan, administered by the United Nations (U.N.) Development Program. The U.S.
contribution to that fund was $20 million in FY 2004, $40 million in FY 2005, and $9.5 million
in FY 2006. In addition to police salaries, trust fund contributions pay for nonlethal equipment,
facilities, recruitment, training, and institutional development.

         As of May 2006, Bureau of International Narcotics and Law Enforcement Affairs (INL)
funding for the ANP program approximates $1.1 billion for the period FY 2004-2007. Almost
all of that funding has gone to the contract with DynCorp International.4 In addition, there was a
transfer of $200 million from the ANA program to the ANP program to procure weapons and
equipment for the police in FY 2005. The FY 2006 supplemental of $1.3 billion includes bridge
funding for FY 2007. Figure 1 graphically depicts the projected ANP program costs through FY
2012. Of note, the government of Afghanistan is projected to maintain a funding level through
FY 2012 and beyond for the police at somewhere around $170 million. CSTC-A forecasts that
the out-year sustainment requirement for the police (including training, infrastructure, and
equipment) will be close to $600 million. The gap presumably will have to be filled by the
international community.




3
  Department of State OIG Report No. ISP-IQO-06-01, Inspection of Rule-of-Law Programs, Embassy Baghdad –
October 2005, p.5.
4
  Briefing memo from INL on Afghanistan Police Program Funding FY 2004 – 2007.


6                            Interagency Assessment of Afghanistan Police Training and Readiness
                                                          UNCLASSIFIED




                     ANP Budget/Capability Projection
                     $1,400



                     $1,200



                     $1,000
     $Million (US)




                      $800



                      $600



                      $400



                      $200



                        $0
                          FY03   FY04   FY05      FY06      FY07        FY08     FY09     FY10     FY11   FY12
                                                               Fiscal Year

                                  MoI    Infrastructure      Equipment         Training     Sustainment




                                          Figure 1. CSTC-A ANP Budget Capability Projection
                                                      (Source: CSTC-A)

German and U.S. Police Training Programs

        Beginning in April 2002, Germany has concentrated its efforts primarily to restore the
National Police Academy (NPA) in Kabul, where police officer candidates go through a three-
year professional training program. It soon became apparent, however, that the country’s
pressing security needs called for a greatly intensified training program. In 2003, INL began
training ordinary police “soldiers” (the Afghan term) and noncommissioned officers through a
network of training centers in Kabul and at seven other locations around the country. The U.S.
government is also equipping the ANP, both with individual equipment (e.g., uniforms and
handguns) and unit equipment (e.g., vehicles and communications equipment). INL contracted
DynCorp International to construct and staff the training centers with mentor/trainers. At the
time of this assessment in June 2006,5 INL had constructed and staffed the Central Training
Center (CTC) in Kabul and all seven Regional Training Centers (RTCs), and all are operational.6
These centers have trained more than 60,000 police recruits and policemen who are currently
serving.




5
  The assessment team was in Afghanistan from June 1-22. Thus, unless stated otherwise, all observations refer to
the situation as of June 22, 2006.
6
  The assessment team visited the NPA, the CTC in Kabul, and five of the seven RTCs.


Interagency Assessment of Afghanistan Police Training and Readiness                                              7
                                              UNCLASSIFIED

U.S. Military Put in Charge of Police Program

        In April 2005, an interagency decision made in Washington shifted responsibility for
directing the U.S.-funded Afghan police training and equipment program from the embassy’s
INL office in Kabul to CSTC-A.7 Responsibility for policy guidance remained with the Chief of
Mission in Afghanistan. CSTC-A assumed overall direction of the programs at the CTC and
RTCs. INL in Washington retained contract management authority and provided CSTC-A with
an embedded senior staff officer.8

        The U.S. government is actively engaged in restructuring the ANP and is assisting the
MoI to increase ANP pay scales significantly, adjust the rank structure, reorganize ANP
divisions, and rebalance ANP deployments in response to security requirements and the national
nature of the ANP. These ANP reforms have been closely coordinated with coalition partners
and the government of Afghanistan.

Assessment

        The police training program has been well conceived and well executed. Trainees,
instructors, and MoI officials are very positive about the program.9 The training program has
made a good start in raising professional standards and competence. Processes and systems have
been put in place to enhance readiness and improve how police recruits are vetted, paid,
assigned, and equipped. Nevertheless, the readiness level of the ANP to meet its internal
security and conventional law enforcement and community-policing mission remains low.
Americans, Germans, other coalition partners, and the Afghans themselves share this judgment.
Despite great strides in delivering training, developing an effective, efficient, and self-sustaining
police force will take time.10 Official U.S. government program planning carries through FY
2010, but everyone the assessment team spoke to in Afghanistan believes that the program’s
success will require substantial international assistance to the Afghan police well beyond that
date.

        Figure 2 provides a graphic depiction of the major events contributing to the development
of the current ANP.




7
  The Office of Military Cooperation – Afghanistan was responsible for training and equipping the ANA, when in
April 2005 they were tasked with equipping and training the ANP. Subsequent to assumption of these new
responsibilities, the command was renamed, Combined Security Transition Command – Afghanistan.
8
  INL states that it is responsible for implementing the training, mentoring, and reform program, and “CSTC-A
directly implements the equipment and infrastructure support while providing oversight for execution of all program
activities.”
9
  The assessment team had contact with over 100 trainees and 80 Afghan instructors and commanders at training
centers. The Minister of Interior and two deputy ministers confirmed this positive assessment.
10
   Conditions pertinent to the Afghan situation are discussed in greater detail in Appendix A below.


8                              Interagency Assessment of Afghanistan Police Training and Readiness
                                     UNCLASSIFIED




                             Figure 2. Chronology of ANP Evolution
                                         (Source: OIG)




Interagency Assessment of Afghanistan Police Training and Readiness   9
                 UNCLASSIFIED




           Page intentionally left blank




10   Interagency Assessment of Afghanistan Police Training and Readiness
                                               UNCLASSIFIED


Afghan National Police Structure

The Tashkil – the Government of Afghanistan’s Afghan National Police Program

        The Ministry of Interior controls the ANP. The authorized force level of 62,000 has been
captured in an organizational document called the Tashkil, which dictates force structure,
personnel end strength, command relationships, and unit/staff functions and mission descriptions
for the ANP.

        The desired force structure described in the Tashkil was initially developed using German
Police Program Office estimates for a police force that would meet the security needs of the
nation and a force the Afghan government would be able to support and fund in the future. The
government of Afghanistan approved the Tashkil in November 2005 and adopted it as the ANP
force-structure planning document in December 2005. A committee comprised of members
from the Afghan MoI, the German Police Program Office, and CSTC-A manages the Tashkil.
Changes to the Tashkil require committee recommendation and MoI approval.

Rebalancing Afghan National Police Force Structure

        The ANP is temporarily reassigning personnel from the highway police to the uniformed
and border police as part of a rebalancing effort to deploy and assign police forces where most
needed.11 In addition to patrol and traffic policemen, the figure for the uniformed police includes
4,116 standby police organized into eight battalions of 500 persons and a small headquarters
element. A battalion of standby police will be stationed in each of the five regions, with three
battalions stationed in Kabul.12 These changes were coordinated with coalition partners and the
Afghan government in response to an increase in insurgent violence in the south and east of
Afghanistan.

Personnel Numbers – Unreliable

         It is difficult to determine the exact number of police on duty. A June 2006 CSTC-A
report shows an ANP strength of approximately 70,000 – substantially higher than the end
strength authorized in the Tashkil. Reports on actual numbers of police, however, are unreliable.
They are inflated and there is no personnel accounting system in place. Numbers of on duty
police are determined by the salaries delivered to police stations according to the number of
patrolmen listed on the roles. Although the MoI has officially adopted the Tashkil, CSTC-A
reports some units have not adjusted their force structure and strengths to comply with Tashkil
authorizations. Affected police unit commanders report numbers of policemen based upon the
Tashkil, but they are maintaining higher actual numbers. Currently, coalition (primarily U.S.)
mentors are the best sources for verifying these numbers. Where there are no mentors, there is
little accountability. CSTC-A has requested assistance from the North Atlantic Treaty
11
   The coalition concluded, with the concurrence of the MoI, that the highway police are so poorly organized and
corrupt that the best solution is to draw that organization down while retraining and reassigning its manpower to
other police organizations, chiefly the uniformed and border police.
12
   Figure 8 depicts the five regions - North, West, South, East, and Kabul.


Interagency Assessment of Afghanistan Police Training and Readiness                                                 11
                                               UNCLASSIFIED

Organization (NATO) International Security Assistance Force (ISAF)13 and the U.S.
Commander Joint Task Force 76 (CJTF-76) to verify police on duty. Provincial police chiefs
have also been specifically tasked by the MoI to fix the personnel accountability problem. Until
that happens, personnel numbers will continue to be unreliable.

Counternarcotics Programs

      The MoI administers the Counternarcotics Police program in Afghanistan through the
Deputy Minister for Counternarcotics.14 Afghan counternarcotics enforcement activities directed
from within the MoI include the following entities:15

     •   Counternarcotics Police - Afghanistan (CNP-A): CNP-A consists of counternarcotics
         investigative and enforcement divisions.
     •   National Interdiction Unit: Established in October 2004 as an element of CNP-A, the
         unit conducts counternarcotics interdiction raids across Afghanistan.
     •   Central Eradication Planning Cell: The Central Eradication Planning Cell is a U.K.-
         supported targeting and intelligence center that targets poppy crops for eradication.
     •   Afghanistan Eradication Force: The U.S.-supported Afghanistan Eradication Force
         conducts ground-based eradication of poppy crops throughout Afghanistan.
     •   Afghan Special Narcotics Force: The elite Afghan Special Narcotics Force receives
         special training from the British military and conducts interdiction missions against high
         value narcotics targets in remote areas.

       The United Kingdom is the primary coalition sponsor of the counternarcotics program –
with considerable program support from the United States. For example, the Counternarcotics
Task Force at Embassy Kabul coordinates U.S. counterdrug strategy in consultation with their
Afghan and coalition partners.16 Also, a new Counternarcotics Training Center, funded by the
Department of Defense, is under construction in Kabul.

        The U.S. Drug Enforcement Administration manages a counternarcotics training program
for the CNP-A at the National Interdiction Center in Kabul. The CNP-A teaches drug
enforcement and investigations techniques to an elite corps of Afghan counternarcotics police.
The CNP-A training is highly specialized, with members recruited from existing ANP units and

13
   ISAF is a U.N.-mandated operation under the auspices of NATO. ISAF comprises more than 18,500 troops, with
contributions from 37 nations.
14
   It is estimated that Afghanistan is responsible for as much as 90 percent of the world’s illicit opium poppy
production. Afghan national counternarcotics strategy consists of five key goals: “the provision of alternative
livelihoods for Afghan poppy farmers, the extension of drug law enforcement throughout Afghanistan, the
implementation of drug control legislation, the establishment of effective institutions, and the introduction of
prevention and treatment programs for addicts.” (Transitional Islamic State of Afghanistan, National Drug Control
Strategy, May 18, 2003)
15
   Congressional Research Service Report, “Afghanistan: Narcotics and U.S. Policy,” updated January 25, 2006.
16
   Substantial growth in opium poppy cultivation and narcotics trafficking led U.S. officials, in consultation with
their Afghan and coalition partners, to develop a more comprehensive, complementary five-pillar plan to support the
implementation of the Afghan counternarcotics strategy. The five pillars of the plan are public information, judicial
reform, alternative livelihood development, interdiction, and eradication. (CRS Report for Congress, “Afghanistan:
Narcotics and U.S. Policy,” updated January 25, 2006)


12                              Interagency Assessment of Afghanistan Police Training and Readiness
                                       UNCLASSIFIED

from each graduating class at the NPA. The MoI has included CNP-A in the rank and pay
reform program. Thus far 125 CNP-A students have graduated from the National Interdiction
Center. The goal is to train 300 officers. Candidates are required to be literate. They submit to
polygraph and urine examinations, as well as limited background checks.




Interagency Assessment of Afghanistan Police Training and Readiness                            13
                 UNCLASSIFIED




           Page intentionally left blank




14   Interagency Assessment of Afghanistan Police Training and Readiness
                                             UNCLASSIFIED


Afghan National Police Readiness

        CSTC-A and INL generally met the goal of providing entry-level training for 62,000
police by December 2005.17 However, quantity is one issue; equally important is the quality
issue, or readiness. CSTC-A has established new criteria for reporting the readiness of the ANP
to plan, execute, and sustain independent law enforcement operations:

        •   Training received,
        •   Unit staffing levels, and
        •   Equipment status.

        Using these criteria, as of June 5, 2006, CSTC-A reported 30,395 ANP personnel trained
and equipped to carry out their police functions. Readiness is gauged by field mentors and is
partly subjective in nature, based on the mentor’s judgment. Every 30 days mentors, where they
exist, perform routine assessments on ANP regional and provincial leadership. CSTC-A is
developing a standard operating procedure on readiness assessments for mentors to improve the
objectivity of readiness reports. CSTC-A has appointed operations officers to track the training,
staffing, and equipping status of ANP units in each of the five regions. The operations officers
collect and compile mentor assessments and use the reports to assess overall ANP readiness. In
the future, CSTC-A will implement a Transition Readiness Assessment Tool to consolidate
electronically the 30-day mentor readiness assessments.18

       CSTC-A uses Capabilities Milestones as a method to describe the ANP’s progress toward
achieving a level of readiness that is self-sustaining. (Figure 3)




17
   CSTC-A and INL have trained 63,581 policemen. An additional 2,929 students are currently in training. CSTC-
A and INL are exceeding the 62,000 requirement to accommodate high attrition. Border police and highway police
have not yet reached 100 percent of the goal but plan to do so by January 2007.
18
   The Transition Readiness Assessment Tool is a management information system that can be used to evaluate each
ANP unit or station in terms of personnel, command and control, training, sustainment and logistics, on-hand
equipment, and equipment readiness.


Interagency Assessment of Afghanistan Police Training and Readiness                                         15
                                             UNCLASSIFIED




                 ANP Capability Assessments
            1• Capabilities Milestone 1:
                                       1 Police element is fully capable
               of conducting law enforcement operations un-aided (w/o
               mentors). Has greater than or equal to 85% of equipment
               and personnel and is self-sustaining.
            2• Capabilities Milestone 2 : Police element is capable of
               conducting law enforcement. Has 70-84% of equipment
               and personnel, still requires mentor support, but not self-
               sustaining.
            3• Capabilities Milestone 3 : Police element has presence in
               its geographic location and is partially capable of
               conducting law enforcement with coalition support. Has
               50-69% of equipment and personnel.
            4• Capabilities Milestone 4 : Police element is formed, but
               incapable of conducting law enforcement operations.
               Has less than 50% of equipment and/or personnel

                          Figure 3. CSTC-A ANP Capability Assessment Milestones
                                            (Source: CSTC-A)

      As illustrated in Figure 4, ANP readiness is currently assessed at Capabilities Milestone
4. CSTC-A projects that in 2007 the ANP should reach Capabilities Milestone 3. By 2009, the
ANP should reach Capabilities Milestone 2. For Capabilities Milestone 1 – fully capable of
conducting unaided and self-sustaining law enforcement operations – the target year is 2010.19




19
   This matches the benchmark committed to in The London Compact agreed upon at a donors conference, January
31–February 1, 2006: “By end-2010, a fully constituted, professional, functional and ethnically balanced Afghan
National Police Force and Afghan Border Police with a combined force of up to 62,000 will be able to meet the
security needs of the country effectively and will be increasingly fiscally sustainable.”


16                            Interagency Assessment of Afghanistan Police Training and Readiness
                                                   UNCLASSIFIED




                                             ANP Reform Strategy
                                                                          Leadership
                               Ineffective                                Selection                              Advising
                               Poorly Led                                 Pay/Rank
                       MoI                                      MoI       Reform                       MoI
                                     Non-                                                                        Implement
                                                                             Building
                     Sustaining      Existent               Sustaining                              Sustaining   /Improve
                                                                             and
                     Institutions    /Corrupt               Institutions                            Institutions Systems
                                                                             Reinforcing
                                     Systems
                                                                                 Equipped                               Advanced
                                        Poorly
                   Police Forces                             Police Forces       and               Police Forces        Training
                                        Equipped
                                                                                 Trained

                    2006 – CM 4                         2007 – CM 4     CM 3                    2008 – CM 3     CM 2
                 “For the Afghans”                       “For and With the                       “With the Afghans”
                                                              Afghans”


                                                       Mature                                Self-
                                             MoI       Afghan                          MoI   Governing
                                                       Capability
                                        Sustaining                               Sustaining       Own
                                                          Validating
                                        Institutions                             Institutions     Institutions
                                                          Systems

                                                                                                      Self-
                                                             Validating          Police Forces
                                       Police Forces                                                  Sustaining
                                                             Forces


                                       2009 – CM 2                                2010 – CM 1
                                     “With and By the                          “By the Afghans”
                                         Afghans”


                               Figure 4. CSTC-A ANP Transition Readiness Strategy
                                               (Source: CSTC-A)

Direction of the Afghan National Police Program

    CSTC-A’s police staff organization – Task Force Police Directorate and Police Reform
Directorate – is functionally structured to focus on two areas: development of the police and
police reform.

    Task Force Police Directorate (TF-Police) is charged with training, mentoring, and
organizing the ANP to enable them to perform the full spectrum of traditional law enforcement
roles, as well as counterinsurgency operations. The mission of TF-Police is to create a respected
and competent police force dedicated to the rule of law and loyal and accountable to the
government of Afghanistan.20

     In accomplishing this mission, TF-Police Directorate:

             •     Guides the activities of contract trainers, mentors, and advisors at police training
                   facilities (CTC and the RTCs);
             •     Conducts basic police training, defensive tactics training, and specialty training;


20
  The Afghan commander at one of the RTCs told the assessment team that he tells the recruits being trained, “You
have no family and no tribe. The ANP is now your family and your tribe.”


Interagency Assessment of Afghanistan Police Training and Readiness                                                                17
                                               UNCLASSIFIED


             •    Designs, maintains, and supports courses, and sustains the capability of trained
                  policemen;
             •    Provides the ANP with mentors at the RTCs and in the districts;
             •    Monitors training contracts and provides oversight, thereto;21
             •    Works with the ANP to develop a functioning staff structure;
             •    Supports regional commanders with regional police advisory teams, intelligence
                  collection and dissemination, and officer tracking and rating, and
             •    Provides ANP status reports to CSTC-A leadership on equipment distribution.

        The Police Reform Directorate is responsible for mentoring and training the MoI and
ANP staff and for installing a program to develop an effective national security institution. The
directorate played a large role in determining the process for implementing the ongoing pay and
rank reform effort (discussed below and in Appendix C) and is assisting the MoI in developing
methods and processes for manning, training, and equipping the national police force. In
addition, the Police Reform Directorate assists the MoI in rebalancing the ANP, ensuring that the
appropriate numbers of trained and equipped police are stationed in the highest-risk areas.




21
  However, the lack of familiarity with the contract on site has been identified as a weakness in the system and is
discussed in the section of this report on contract issues.


18                              Interagency Assessment of Afghanistan Police Training and Readiness
                                        UNCLASSIFIED



Training Program Assessment

Overview of the Afghan National Police Training Program

       INL established the ANP basic and advanced courses. The DynCorp contractors teach
these courses at the CTC and the RTCs. The courses are professionally administered, technically
and tactically correct, and above all, relevant to the current security situation in Afghanistan.
While these police courses are taught at a pedestrian level compared with western police
academies, they are nevertheless appropriate for the Afghanistan situation, especially considering
that more than 70 percent of ANP recruits cannot read or write.

       The assessment team observed portions of the following courses:

       •       Basic I, II, and III courses,
       •       Transition Integration Program (TIP),
       •       Border Police courses,
       •       Firearms handling,
       •       Range training,
       •       Building searches,
       •       Vehicle searches,
       •       Drill and ceremonies,
       •       High risk vehicle stops,
       •       Defensive tactics,
       •       Baton training, and
       •       Handcuffing techniques.

        The training tempo in the classroom environment is slower than at western police
academies. The hands-on or performance exercises, however, are conducted at a pace similar to
that of western academies and are both realistic and well received by the ANP recruits.

        When police recruit graduates return to their local police stations, they are not typically
assigned to law enforcement activities. Instead, the ANP policemen are usually assigned to
security guard and other entry-level duties. Performing advanced police duties is deferred.
Enforcement of criminal laws, including making arrests, is left to more senior police officers and
to members of the Criminal Investigation Division. Thus, a typical ANP graduate is not assigned
to duties that reinforce the CTC or RTC experience.

       The CTC and RTC training courses provide only a basic platform for continued learning
that must be rigorously reinforced by a local field training officer (FTO). In western police
departments, FTO programs provide a critical bridge between academy training and actual police
work. In addition, they allow police supervisors to evaluate the suitability of new police officers,
under the supervision of an experienced officer. While limited field officer training has been
accomplished, a formal FTO program at the local level has not yet been implemented. The ANP


Interagency Assessment of Afghanistan Police Training and Readiness                             19
                                                 UNCLASSIFIED

will benefit greatly if the FTO program is extended to all police stations. The CTC and RTCs
are now teaching five-week FTO courses to experienced ANP police officers who will take these
skills back to their police stations to implement local FTO programs.

        The Afghan instructors, INL, and the American police mentors are to be commended for
creating dynamic and creative learning environments that facilitate student growth and self-
confidence. It is important to provide these ANP training courses to the right students at the
right times during their careers. However, in order to master and retain these skills, they should
be practiced shortly after they are learned. (The section on mentoring, below, discusses
mechanisms for follow-up training. A detailed description of the training curriculum is in
Appendix B.)

       The German-supported NPA in Kabul graduated its first class of 251 police officers in
2005.22 As a positive indication of gender diversity, the 2006 class includes 15 female students.
The NPA program is a significant element in developing a professional national police force and
teaches values and skills comparable to police academies in the west.

Recruiting

        The recruiting section in the MoI Training Department is responsible for recruiting police
officers and developing general recruiting standards. The Tashkil tasks the recruiting section to
develop recruitment qualifications and selection criteria. Based on the assessment team’s
interviews at the NPA, the CTC, and several of the RTCs, only the NPA screens students based
on the entry qualifications of age, height, health, and literacy. The RTCs test only for literacy.
Students who fail the literacy test are assigned to the five-week course for illiterate students.

         Although the Tashkil calls for recruiting officers in all five ANP regional areas, the
assessment team was unable to verify their presence in the regions. Based on interviews with the
RTC commanders, mentors, and police district chiefs, almost all recruiting occurs at the police
district level. In effect, police are recruited locally to serve locally.

Vetting

        The Afghan MoI has an official process for vetting potential ANP recruits – and, by
extension, a process for selecting basic police training recruits for the CTC and RTCs. Recruits
sign an entry contract for three years of service. The contract includes a picture of the recruit
and some background information – name, age, and home. Two individuals must also vouch for
the character and good conduct of each recruit. Vouching individuals are supposed to be
currently working as police officers, but if none exist in the recruit’s village, another government
official is acceptable as a vouching individual. The voucher form is then sent to the MoI for
screening and a records check. If the MoI deems the recruit acceptable, a second form bearing
the MoI seal assigns the recruit a discrete identification number and is attached to the contract.
The contract and the vetting form tell the CTC and RTCs that the student has been vetted and is
approved for training. After the student completes training, these forms are returned to the MoI
for record.
22
     The NPA classes for officers have a duration of three years. Noncommissioned officer courses last for 12 weeks.


20                                Interagency Assessment of Afghanistan Police Training and Readiness
                                                   UNCLASSIFIED



         RTCs, however, do not universally comply with the MoI vetting process. For example,
one RTC’s vetting process did not involve the MoI at all. Instead, a letter from the recruit’s
district chief was used to verify and certify that the recruit candidate was not Taliban and was not
corrupt. In a country without reliable personal and criminal records and where regional and
tribal affiliations are strong, it is difficult to verify suitability of police candidates. This
difficulty in vetting individuals is evident for currently serving policemen receiving transitional
integration training as well as for new recruits.

        Although the current vetting procedure is ineffective, at least a process exists and the
application of internal control procedures can lead to an improved, standardized, reliable process
over time. However, until a national criminal database is established to support vetting and a
national recruiting system is developed that does not rely on local police chiefs, the efficacy of
the vetting process cannot improve significantly. Given the lack of institutional infrastructure, a
viable communications network, and an effective judicial system, it is unlikely that a credible
criminal records database will be developed in the near future. The MoI vetting system needs to
be enforced and standardized as part of an impartial national MoI recruiting system free of
cronyism and corruption.

Assignment and Deployment

         The MoI lacks a national assignment system for graduates of the training centers and the
police academy. Presently, graduates of the RTCs return to the province from which they were
recruited. According to a MoI official, this assignment system promotes corruption. The official
said the corruption is systemic and is related to tribal relationships and local or provincial
loyalties. Some MoI officials suggest that the only way to fight corruption of this nature is by
adhering to a national recruiting and assignment system. Because Afghans are subject to strong
tribal influences, officials believe the best method to ensure police loyalty to the central
government is to minimize the provincial/ethnic allegiance by assigning them to provinces other
than their own.

        The MoI intends at some point to improve the assignment process and assign graduates to
provinces other than their home areas. The Minister of Interior has appointed himself champion
of nationalizing the ANP and has started a recruiting campaign based on national service.

         Several Afghan trainees interviewed at the RTCs said they would be willing to move
from their province. Those who thought otherwise, however, expressed a more realistic view.
For example, one RTC deputy commander said many policemen would be unwilling to move.
He recalled that 60 policemen from other provinces had been assigned to serve in his province,
but only two arrived for work. Police prefer to serve in their own province because of ethnic
affiliations, travel difficulties, and problems sending pay home to families. Young policemen are
reluctant to work in a different province than their own because locals do not accept them due to
ethnic, religious, and language differences.23 In Bamiyan province, for example, many local
recruits only speak a language unique to their area, making assignment outside the region


23
     Afghanistan has 12 ethnic entities, five religious sects, and over 30 languages and dialects.


Interagency Assessment of Afghanistan Police Training and Readiness                                  21
                                               UNCLASSIFIED

impractical without additional language training. The high illiteracy rate among policemen
complicates this condition.

       Working with the MoI, CSTC-A is making some positive efforts to diversify assignments
and deployment. The MoI recently reassigned the Northern Regional Standby Battalion to the
south, where reinforcements are needed. The MoI is proceeding with its plan to reorganize the
highway police and to redeploy their personnel to standby and border police units elsewhere in
the country. The MoI will make the final decision on their reassignments. In addition, CSTC-A
has proposed a plan to boost ANP numbers temporarily by 2,100 to meet an upsurge in
insurgency activity. These police trainees will be recruited from all over the country for
assignment in the southern provinces.

Retention and Attrition

        CSTC-A reports the attrition rate is about 15 percent per year. Interviews with students
and trainers at the RTCs suggest that the number could be as high as 30 percent. There are no
hard data to substantiate attrition.

        There are many factors that contribute to attrition. They include:

        •    Female police recruits claim the main reasons for leaving the force are family and
             local pressure.24
        •    Males cite family pressure, failure of the system to meet pay expectations, and
             excessive corruption. For example, recruits are often forced to give part of their pay
             to higher-ranking officers.25
        •    Because there is no nationwide banking system, all salaries are paid in cash. Long
             lapses in the payment process further complicate the pay situation. Some trainees
             have not been paid in more than two months.

       The new rank and pay reform procedures are intended to address at least some of the
abuses in the current pay system. (See description of pay reform below.)

Afghan National Police Recruit Profile

         The assessment team interviewed over 100 randomly selected police recruits. The typical
recruit is a male in his early twenties who has little formal education and is illiterate or
semiliterate.




24
   The assessment team was told that there are currently 91 female members of the ANP, none of them high-ranking.
Several interviewees said that the number of female police should grow substantially, especially because in a
Muslim society only female police can appropriately deal with female suspects. In addition, female police are
needed to deal with domestic disputes.
25
   Often higher ranking officers will take a portion out of each patrolman’s pay before paying the policeman. In one
instance, a police colonel boasted to his RTC counterparts that he always took a portion from the pay of every
policeman in the province.


22                             Interagency Assessment of Afghanistan Police Training and Readiness
                                             UNCLASSIFIED



        A number of recruits stated they had some paramilitary training and experience, but the
                                                            source of training was not revealed
                                                            and none of the recruits referenced
                                                            any prior experience with the ANA.

                                                                         Typically, the basic police
                                                                 recruit spends several months to one
                                                                 year performing administrative or
                                                                 guard duties as a police soldier in a
                                                                 local district police station before
                                                                 going to the CTC or RTC. A few of
                                                                 the students interviewed claim to
                                                                 have participated in police
                                                                 operations during this period,
                                                                 including making high-risk arrests
                                                                 and searching buildings. Some of
                                                                 the recruits who described these
   Figure 5. Afghan National Police recruits in formation at the experiences claim they were armed
       Central Training Center in Kabul (Source: CSTC-A)         with a loaded firearm during
                                                                 operations, but none had ever been
trained or qualified with a weapon prior to coming to the CTC/RTC.

        The recruits interviewed appeared motivated to learn. They said the police training was
an excellent opportunity to enhance their lives and aid their country’s reconstruction efforts.
Most of the recruits professed little or no comprehension of professional police officer duties
prior to attending the basic police course. Many expressed surprise, as well as a new sense of
pride, in the model of professional policing they were being exposed to in the basic police
course.26

         The high illiteracy rate among the police recruits is problematic. Obviously it is easier
for the recruits to process the subject matter when they can read and write. In addition, the
assessment team observed that the classes for literate recruits have more lively discussion and
more student participation than do the illiterate classes. Nevertheless, there is no discernable
difference between the literate and illiterate students during the practical exercises, such as high-
risk traffic stops, handcuffing, building searches, full contact baton training, and vehicle
searches. It must be noted that illiterate policemen cannot perform the full spectrum of
professional police duties. Thus, to the degree that the ANP is manned by illiterate personnel, it
cannot meet the performance standards of a fully professional police force.




26
  The assessment team is aware that the Afghan students and instructors may have been coached on what to say but
judges that the sentiments expressed in these interviews were sincere.


Interagency Assessment of Afghanistan Police Training and Readiness                                         23
                                                UNCLASSIFIED

         The CTC and some of the RTCs offer basic literacy training prior to the start of the basic
police courses.27 Predictably, these literacy courses are most effective with recruits who arrive
with some reading skills and some prior formal education. For an illiterate student, a five-week
literacy course is a start toward literacy. However, such a short course does not fully prepare the
illiterate recruit for the basic police course designed for literate students. Some police stations
are attempting to address the illiteracy problem by providing local literacy courses. While these
initiatives are important and should be encouraged, they typically occur after basic police
training and, therefore, too late in the training process to ensure that the recruit receives the
maximum benefit from the basic police course. Moreover, the assessment team learned that the
literacy programs at the RTCs were often limited to just one hour per week or every two weeks.

Evaluation of DynCorp Police Trainers

        DynCorp is contracted under a Department of State Civilian Police contract to provide
ANP training. During the team’s visits to five RTCs and the CTC, the assessment team observed
the DynCorp training cadre to be a professional, dedicated, and enthusiastic group. Most of the
DynCorp trainers are recently retired police officers from small to medium-sized police
departments in the United States; hence, they have extensive policing experience. Others are
active duty police officers on leaves of absence from their departments to work in Afghanistan.

        Based on feedback during the assessment team’s interviews, virtually all of the police
trainers have extensive training backgrounds in a variety of police subjects and many have
instructor certifications in multiple law enforcement disciplines. In addition, it is evident that
INL and DynCorp have deliberately placed instructors with appropriate disciplines in the right
positions. Many of the police instructors hold advanced educational degrees and many have
senior command and advanced tactical operations experience.

        Approximately half of the instructors have prior military experience, chiefly acquired
before they became police officers. All of these police trainers believe their military experience
greatly assists them in performing this mission given the unique security situation in Afghanistan
and the daily contact with the military representatives from CSTC-A and ISAF.

       The DynCorp police instructors that the assessment team met are generally respectful and
proud of the ANP officers, instructors, and students with whom they live and work. While the
DynCorp instructors are fully aware of the challenges and limitations faced by the ANP, they
remain guardedly optimistic about the overall chances of success for the training program.




27
  Literacy training is a pilot program wherein illiterate students receive a five-week literacy skills course. Once the
students pass the literacy skills program, they will begin the nine-week course curriculum now taught to literate
ANP students. Once implemented throughout all training centers, this program will replace the current five-week
course for illiterate candidates and channel all ANP students into a single common-core, skills-training program.


24                              Interagency Assessment of Afghanistan Police Training and Readiness
                                          UNCLASSIFIED



Mentor Program

        The assessment team
contends that the success of
the police training and
readiness programs in large
measure depends on the
success of the international
mentors in the field. As the
ANP force is built on a
legacy of 28 years of civil
war and dictatorships, the
importance of experienced
international civilian police
trainers and mentors cannot
be overstated. As of June
2006, DynCorp was
supplying 245 American
police contractors; an
additional 30 were due to
                                   Figure 6. Police trainer observing an apprehension exercise at the
arrive in Afghanistan at the                     Regional Training Center in Kandahar
end of June. DynCorp is                                       (Source: OIG)
contracted to provide 352
police trainers and mentors. DynCorp reports that CSTC-A is seeking a total of 466 police
trainers and mentors. As of the date the team departed Afghanistan, there is no evidence the
contract has been modified to reflect the additional 114 proposed police mentors.

        Police mentors play an essential role to bridge the gap between theory and practice.
Whether assigned to an ANP headquarters or at a district police station, they provide a ready
source of advice, assistance, and practical solutions to ANP personnel, most of whom have little
or no actual police experience.

       Despite the great potential of this program, the assessment team identified a number of
potential limitations of the ANP mentor program. For example, most of the police mentors
assigned to the northern provinces were suddenly relocated to southern provinces to create large
mentor saturation teams. This was necessary to help control the disruption to police activity
caused by insurgent attacks in the region, but this action left a mentor gap in the northern
provinces. There was no timetable for replacing these mentors in the north.

        The DynCorp contract requirement for 352 American police contractors is insufficient to
provide adequate assistance to the fledgling ANP. While the current level of police mentors
(when properly distributed) may provide mentoring for the top levels of ANP management in
each of the five regional police commands, it is an insufficient number to make an impact at the
local police stations. Every police station would benefit from continuous, dedicated mentorship
on a routine basis. Experienced police mentors could have a great impact at the line level,



Interagency Assessment of Afghanistan Police Training and Readiness                                 25
                                        UNCLASSIFIED

advising police officers, sergeants, and mid-level management in routine, as well as specialized,
law enforcement operations. However, there are factors discouraging such an augmentation of
the mentoring program. Generating this level of mentorship in the ANP would significantly
increase the U.S. commitment in terms of overall contract costs, personnel, and equipment
requirements, as well as increasing the risk to U.S. personnel.

Recommendation 1. The Bureau of International Narcotics and Law Enforcement Affairs, in
coordination with Combined Security Transition Command – Afghanistan and international
partners, should develop, staff, and implement a comprehensive international police mentor
program for Afghanistan. This program must coordinate international mentoring and training at
local police districts, both inside the station house and on patrol, and describe procedures to track
equipment and communicate issues, needs, and problems to the Combined Security Transition
Command – Afghanistan and the Bureau of International Narcotics and Law Enforcement
Affairs. (Action INL, in coordination with CSTC-A)




26                         Interagency Assessment of Afghanistan Police Training and Readiness
                                           UNCLASSIFIED


Police Reform

Pay and Rank Reform

        The Tashkil, effective in December 2005, authorizes organizational reform. Rank reform
will reduce a top-heavy and poorly organized ANP force. The number of higher-ranking officers
will be reduced by 44 percent, within a constant total of 62,000 in the ANP workforce. Pay
reform will establish parity between salaries in the ANP and the ANA. The MoI is committed to
these reforms and is actively participating in the process of selecting ANP officers based on
merit rather than loyalty or local influence.

       The pay and rank reform is designed to:

       •    Create an organizational fix within the ANP that eliminates top-heaviness and bases
            rank on merit, not loyalty or connections;
       •    Improve the attractiveness of the ANP for recruiting and retention; and
       •    Break the chain of corruption by paying a living wage and recruiting and assigning
            police nationally.

       The following table (Figure 7) shows pay and rank structure, before and after reform.


           ANP PAY & RANK REFORM
                 RANK STRUCTURE                                    PAY STRUCTURE
 Before Reform                    After Reform     Before Reform                     After Reform
          319       Generals            120               $107       Lt General           $750
        2,447       Colonels            235               $103       Maj General          $650
        1,824       Lt Colonels         305               $95        Brig General         $550
        2,067       Majors              474               $92        Colonel              $400
        3,762       Captains           1,140              $88        Lt Colonel           $350
                     st
        1,705       1 Lieutenants     1,710               $83        Major                $300
                     nd
        1,834       2 Lieutenants      2,836              $78        Captain              $250
                     rd                                               st
        1,043       3 Lieutenants          0              $69        1 Lieutenant         $200
                                                                       nd
        4,813       Sergeants          9,300              $66         2 Lieutenant       $180
        36,600      Patrolmen         45,880              $62        Sergeant             $115/$140/$160
                                                          $70        Patrolman            $70/$80

                                                                                     Pay per month in USD


                               Figure 7. ANP Pay and Rank Reform Chart
                                           (Source: CSTC-A)

        CSTC-A, in coordination with the MoI, has developed a plan to phase in both pay and
rank reform. The new pay levels are several times higher than the previous scale (except at the
patrolman level) and will mitigate some of the discomfiture of those officers not retained in their
former rank. Officers offered the option of a reduction in rank rather than separation will receive
a substantially higher salary at their new lower rank than they received at their former rank.
Officers not given the choice or voluntarily retiring will receive severance pay.


Interagency Assessment of Afghanistan Police Training and Readiness                                   27
                                              UNCLASSIFIED



        A commission led by a ranking Afghan General, and working through the MoI, is
implementing the rank reform initiatives. The Rank Reform Commission is an all-Afghan board
(advised by CSTC-A) that selects qualified officers to staff the streamlined ANP rank structure.
The rank reform process has both objective and subjective elements. (Appendix C describes the
selection and implementation process.)

Pay Distribution

        Pay and rank reform addresses the structural elements of the pay issue. There are also
problems with pay distribution. By all accounts, the MoI pay disbursement system is completely
broken and is one of the causes of the systemic corruption long associated with the Afghan
police. A common thread in ANP interviews is that police are not reliably paid. Salaries
actually reaching ordinary policemen are routinely reduced because of salary skimming by more
senior police.

        The Afghan Ministry of Finance (MoF) has primary responsibility for transferring the
funds to the MoI for the payment of police salaries, but CSTC-A considers the MoF to be an
ineffective ministry.28 Additionally, CSTC-A finds that the MoI finance department is
understaffed. To correct the immediate problem and create an institutional correction that
ensures timely and complete payment to ANP personnel, CSTC-A has placed a finance team in
the MoI with the task of addressing the ministry’s pay problem at three different levels:

          •   National level – arrange to have three months’ pay in arrears distributed to the ANP;
          •   MoI level – initiate a Planning, Programming, and Budgeting System; and
          •   Operational level – map the MoI pay process to analyze for specific problem areas.

         In mid-June 2006, CSTC-A enlisted the assistance of ISAF to participate in a program to
observe the way police are paid in the field taking into account the absence of an adequate
banking system, especially outside of Kabul. CSTC-A plans to put an additional 15-30
U.S./Afghan personnel trained in finance in the MoI Finance Department to incorporate lasting
institutional changes to fix how and when police are paid. CSTC-A will recommend to the MoI
that civilians – not policemen – be put in charge of the new Planning, Programming, and
Budgeting System and Pay Master system. CSTC-A is working with the MoI to have a new pay
system in place by mid-2007.



Rebalancing Police Forces

    Historically, Afghanistan has been characterized as a nation of loosely confederated warlords
who rule over geographically separate domains. As the new Islamic Republic of Afghanistan
struggles to assert its sovereignty in the face of persistent insurgent resistance, there is continued

28
  Problems in the MoF are outside of the purview of CSTC-A (and this OIG assessment) and must be dealt with
separately. U.S. Agency for International Development currently has a number of projects ongoing to assist the
Ministry of Finance.


28                             Interagency Assessment of Afghanistan Police Training and Readiness
                                       UNCLASSIFIED

pressure from voices within the national government to revert to the old ways and permit
provincial governors to field their own militias. To preempt the need to augment authorized
police forces with armed militias, the embassy and CSTC-A have proposed rebalancing existing
police forces as an acceptable alternative. Rebalancing consists of the following:

   •   Disestablish the highway police (3,400 strong) and transition them into the uniformed
       and border police;
   •   Shift stand-by police battalions from the northern to the southern region to provide
       additional security in high threat areas;
   •   Accelerate the rank and pay reform process; and
   •   Recruit and train 2,100 temporary additional ANP to be deployed to the south in support
       of the standby police battalion stationed there. These temporary police would not be
       counted in the authorized Tashkil level of 62,000, but after one year the temporary police
       could integrate into ANP regular ranks, compensating for normal attrition.

    The sweeping reforms of the ANP represented by rank and pay reform and rebalancing are
necessary if the ANP is to become a national force serving the central government and the
interests of the population. The assessment team notes that the expansion of the police program
beyond training and equipping the ANP is essential. The goals set by the international
community to build a modern police force in Afghanistan will require flexibility, leadership,
persistence, and sufficient financial resources to support the reforms.




Interagency Assessment of Afghanistan Police Training and Readiness                           29
                 UNCLASSIFIED




           Page intentionally left blank




30   Interagency Assessment of Afghanistan Police Training and Readiness
                                                UNCLASSIFIED


Command and Control

        As this assessment was conducted, the first of five Regional Command Centers (RCCs)
was established and colocated at the Kandahar RTC. Establishment of the RCCs is seen as an
important step in transforming the focus of the police from a provincial to a national perspective.
The five ANP RCCs will be located in each of the five regional command areas and will
correspond to the ANP’s command and control structure. This structuring is deliberate and is
intended to enhance coordination of security efforts between the ANP and ANA. Figure 8
depicts the five regional command areas.


                                     5 ANP Regional Command Areas


                                                Jawzjan                   Konduz
                                                             Balkh              Takhar Badakhshan

                                       Faryab                 Samangan      Baghlan
                                                 Sar-I Pol                                 hir
                                                                                        njs
                                                                                      Pa          Nuristan
                                  Badghis

                                                                                    Ka
                                                                          Parwan                        Kunar


                                                                                      pi
                                                                                              Laghman
                                                             Bamyan

                                                                                         sa
                                                                         Kabul
                                                                  Wardak                      Nangarhar
                    Herat                           Day
                                        Ghowr      Kundi                     Lowgar
                                                                               Paktia
                                                                   Ghazni           Khowst
                                                 Uruzgan
                                                                                                                5 ANP Regional Commands
                 Farah                                                    Paktika
                                                           Zabol
                                                                                                                  Gardez
                                                                                                                  Kandahar
                                                Kandahar
                         Nimruz                                                                                   Herat
                                  Helmand
                                                                                                                  Mazar-e Sharif
                                                                                                                  Kabul



                                                               - 22/2 -

                                      Figure 8. Regional Command Areas
                                                (Source: CSTC-A)

         Each of the RCCs, except Kabul, will be colocated initially with RTCs to take advantage
of common equipment, infrastructure, and facilities. Colocation of the Regional Commander at
the Regional Training Centers optimizes the available infrastructure resources and obviates the
need for additional security measures; however, having a more senior officer within the RTC
compound causes confusion with respect to command and control. The Afghans are rank
conscious, giving deference to the senior leader, regardless of chain of command. The RCC
commander is senior to the RTC commander and will be perceived to exercise control over the
curriculum or training at the RTC. Several of the DynCorp instructors expressed concern that
the presence of the RCC commander within the RTC compound will unduly “operationalize” the
police training. While the role and mission of the Regional Commander is spelled out in the
Tashkil, the command relationship between the Regional Commander and the RTC Commander
is not that clear.


Interagency Assessment of Afghanistan Police Training and Readiness                                                                       31
                                      UNCLASSIFIED



Recommendation 2. Embassy Kabul, in coordination with the Combined Security Transition
Command – Afghanistan and in consultation with the Ministry of Interior, should produce a
document that clarifies the command relationships between regional training centers, border
police, standby police, and highway police in relation to the regional and provincial
commanders. (Action: Embassy Kabul, in coordination with CSTC-A)




32                       Interagency Assessment of Afghanistan Police Training and Readiness
                                        UNCLASSIFIED


Afghan National Police Internal Affairs/Inspector General

         The Tashkil shows an Office of Internal Affairs reporting to the MoI, although other
documents do not list this office. As reported to the assessment team, 28 ANP students
graduated from a single course in professional standards or internal affairs in 2005. Initially, the
ANP informed the CTC mentors that this was to be only the first of a series of classes to prepare
internal affairs investigators to move into the five regional ANP commands and eventually into
the 34 provincial police headquarters. However, ANP has not requested additional professional
standards classes, nor is it clear that any of the former graduates were assigned to an internal
affairs function. Anecdotal information gained by the CTC suggests that most or all of the
professional standards students were absorbed back into other duties within the ANP, rather than
internal affairs duties.

        As the Afghan government develops its first modern police force – dedicated to the rule
of law – it needs an internal affairs or an inspector general oversight capability to detect,
investigate, and report allegations of mismanagement, abuse of authority, fraud, waste, and
corruption. As a minimum, this office should investigate allegations of wrongdoing within the
police force, but it should also be designed ultimately to provide audit and inspection functions
as well. Development of a vigorous internal affairs or inspector general organization within the
ANP should be considered a priority tasking for the U.S. and international mentors assigned to
the MoI and to the regional and provincial command centers.

       It should be noted that the Afghanistan Ministry of Defense has an inspector general (IG)
system – an organizational structure and a trained staff to conduct inspections and investigations.
The Ministry of Defense IG system includes two IGs; one IG advises and supports the Minister
and the other IG conducts ANA oversight activities. Thus, the inspector general process is not a
new concept for the government of Afghanistan.

         Furthermore, as Afghan citizens begin to rely increasingly upon the ANP for law
enforcement services, they need to know that the ANP is committed to building and preserving
their trust and confidence. ANP personnel must conduct themselves in a professional and
trustworthy manner. This is no small undertaking in a country with a history of systemic
corruption and a dysfunctional criminal justice system.

Recommendation 3. Embassy Kabul, in coordination with the Combined Security Transition
Command – Afghanistan, should work closely with the Ministry of Interior to establish an
independent Afghan internal affairs and/or inspector general office to investigate allegations of
bribery, embezzlement, fraud, and other forms of wrongdoing within the Afghan National Police,
and to conduct audits and inspections. (Action: Embassy Kabul, in coordination with CSTC-A)




Interagency Assessment of Afghanistan Police Training and Readiness                              33
                 UNCLASSIFIED




           Page intentionally left blank




34   Interagency Assessment of Afghanistan Police Training and Readiness
                                        UNCLASSIFIED


Contract Program Management Issues

        There is a need to improve management of the contract for the APP. Operational
responsibility for the police training program was transferred from INL to CSTC-A in April
2005, but INL retained authority for the program’s contract with DynCorp. That contract is part
of a Firm Fixed Price task order to the Department of State’s global Civilian Police Program
contract, which commenced July 1, 2005, and has a period of performance of three years,
including a base year and two option years.

No Contracting Officer’s Representative

        When CSTC-A assumed the operational responsibility for the police training program, it
did not have anyone on its staff with technical knowledge of the Department of State’s police
training contract. There is still confusion at CSTC-A and in the embassy’s INL office over what
is contained in the Department of State contract and its numerous modifications. The assessment
team requested a complete copy of the contract, task orders, statement of work, and
modifications from INL/embassy and from CSTC-A. Neither the embassy nor CSTC-A had a
copy of the contract or the modifications thereto. The assessment team asked the contractor in
country and INL’s temporarily assigned contracting officer’s representative (COR) in Kabul if
these documents were available. Neither could provide a complete set of contract documents
relating to the ANP. Furthermore, the INL COR did not have all supporting documentation for
the respective modifications, and the DynCorp office could not provide copies of several of the
current contract modifications.

        Frequently changing contract requirements have led to mistakes, increased costs, and
disagreement among the program managers at CSTC-A, program managers at the embassy’s
INL office, and officials at DynCorp. As an example, the Director of Task Force Management
tasked the contractor to add trainers to an RTC without informing the INL office at the embassy.
Because necessary housing and support requirements had not been met in advance, INL directed
the trainers to return to their previous assignments. As a result, the contractor incurred additional
contract costs while not providing the additional trainers requested by CSTC-A.

        Lack of effective in-country program management of the DynCorp contract has created
frustration, confusion, and uncertainty for the contractor. Caught between conflicting
instructions, the contractor essentially serves three masters: CSTC-A, INL at the embassy, and
the contract officer in the Department of State’s Bureau of Administration. Because there has
been no single point of contact in Afghanistan to which DynCorp could turn for clarification of
contract and modification requirements, they have had no reliable method for quickly resolving
conflicting instructions.




Interagency Assessment of Afghanistan Police Training and Readiness                              35
                                               UNCLASSIFIED

       At the time of the assessment team’s visit, a new short-term INL COR29 arrived in Kabul,
assigned to the embassy’s INL office.

Recommendation 4. The Bureau of International Narcotics and Law Enforcement Affairs
should assign a qualified contracting officer’s representative on a permanent basis to Embassy
Kabul to improve program management of the police training contract in support of the U.S.
military command in charge of the police training program, the Combined Security Transition
Command – Afghanistan. (Action: INL)

Contract Administration

       Decisions affecting the APP contract have been made without coordination with the
contracting officer or the contractor’s management representative in Kabul. This is an
inappropriate management practice and contrary to good order and discipline.

        CORs are required to establish a file containing, among other things, a complete
procurement request package, contract and all modifications, and technical and cost proposals.30
Lack of a complete contract, task orders, statement of work, and modifications to the contract in
Afghanistan has created a situation of the blind leading the blind. Neither CSTC-A nor the INL
office at the embassy has had a full understanding of contract commitments or requirements.
The fact that the contract specifications and requirements are not clear to those tasked with
running the police program is unsatisfactory and must be remedied.

Recommendation 5. The Bureau of Administration, in coordination with the Bureau of
International Narcotics and Law Enforcement Affairs should provide the Combined Security
Transition Command – Afghanistan and Embassy Kabul, as executors of the Afghan Police
Program contract, a copy of the current contract task orders, Statement of Work, and
modifications. (Action: A, in coordination with INL)

Contract Clarification Needed

        Upon assuming the responsibility for the ANP training program in April 2005, CSTC-A
became aware of the pressing need to engage the MoI more directly and to provide strategic
planning capabilities throughout the various MoI directorates. To do this properly, CSTC-A
needed to embed mentors and strategic planners in the MoI. Without a copy of the Department
of State’s APP contract, CSTC-A tasked DynCorp directly to provide qualified mentors for the
MoI. The mentors initially provided by DynCorp did not meet all of the strategic planning and
executive mentoring requirements. CSTC-A reassigned some of the DynCorp contractors and
replaced them with other strategic planning contractors from MPRI who had been working in the


29
   The government, through the COR, is responsible for ensuring that technical and financial terms and conditions of
the contract are carried out. The COR’s responsibilities include monitoring the contractor’s technical progress and
expenditures of resources, resolving technical issues arising under the contract, and referring to the contracting
officer contracting issues that cannot easily be resolved. The government is legally responsible for actively
watching and following the contractor’s performance and taking prompt action to correct problems when they occur.
30
   The COR Handbook, 6FAH-2, Para H516 “Standard COR Working File.”


36                             Interagency Assessment of Afghanistan Police Training and Readiness
                                       UNCLASSIFIED

Afghan Ministry of Defense. These replacement mentors were temporarily assigned to the MoI
from a CSTC-A controlled contract.

       In the situation described above, one contractor alleges that his company won the contract
to provide mentoring services to the ANP and the MoI and that replacement of their personnel by
contracted personnel from another company was a violation of the contract specifications. The
Department of State contracting officer overseeing the contract states that the contract does not
give any company exclusive rights for providing mentoring services at the ministerial level.
Nevertheless, the assessment team concludes that the duplication of effort and the use of two
contractors to provide mentors in the MoI is not an effective approach and is not cost effective.

Recommendation 6. The Combined Security Transition Command – Afghanistan, in
coordination with the Bureau of International Narcotics and Law Enforcement Affairs and
Embassy Kabul, should develop a formal memorandum of agreement to describe the positions,
conditions, and process by which DynCorp will replace the temporary MPRI advisors to the
Ministry of Interior. (Action: CSTC-A, in coordination with INL and Embassy Kabul)

Security Situation Requires Responsive Contract Management

       CSTC-A managers assert that the contract managed by the Department of State for the
APP is slow to meet changing program needs in the field. The contracting officer at the
Department of State’s Office of Logistics Management in the Bureau of Administration, on the
other hand, stated: “…the Civilian Police Program contract provides flexibility in spite of its
size…[and] that contract modifications could be done quickly - in a matter of days - once the
proper information is received from INL program managers in Kabul, and the requested changes
are approved in Washington in the INL Bureau.”

        The problem with contract execution is that the Department of State holds the contract for
police training in Afghanistan, yet the military command, CSTC-A, is charged with executing
the police training program. In spite of this awkward mechanism for contract support for the
police program, the assessment team does not recommend that the contract be terminated for the
convenience of the government and recompeted by the Department of Defense. First, the cost
might be prohibitive. Second, it was an interagency decision in 2005 to leave contracting
authority with the Department of State while transferring the responsibility for direction of the
police program to the Department of Defense, and there is no request to revisit that decision.
Third, it would be disruptive to the program. Fourth, there is no assurance that the resulting
arrangement would work much better.

        Given the circumstances, the best solution is to implement the foregoing
recommendations regarding contract oversight and ensure that INL properly manages the
training contract on behalf of CSTC-A. The police program has accomplished a great deal
already despite the unwieldy management structure. The assessment team believes that
improving management processes within the present framework is better than reorganizing the
structure.




Interagency Assessment of Afghanistan Police Training and Readiness                           37
                 UNCLASSIFIED




           Page intentionally left blank




38   Interagency Assessment of Afghanistan Police Training and Readiness
                                       UNCLASSIFIED


Department of State Reporting

    The INL office at Embassy Kabul has been ineffective in reporting APP activities. Initially,
the lack of personnel in the embassy’s INL office complicated matters. Now, the split control of
the police training program – with the INL office in the embassy having some responsibilities
and the INL representative at CSTC-A having others – has brought reporting to a near standstill.
One of the consequences of this situation is that key offices in Washington are poorly informed
of the progress of the ANP program.

        The embassy in Kabul must remedy this communication problem. Among the various
options, management must decide whether to keep the current arrangement in which the INL
office operates as a separate section of the embassy, reporting to the Ambassador through the
deputy chief of mission, or move it under the supervision of another office within the embassy to
better coordinate and carry out policy decisions.

         The lack of coordination between the embassy INL office and the INL officer embedded
in CSTC-A has been a problem. The INL representative at CSTC-A failed to keep the embassy
INL office abreast of emerging program changes in a timely fashion. The incumbent of the
position reported only to the CSTC-A Commanding General and the deputy chief of mission. By
contrast, the Senior Police Program Advisor in INL at the embassy, a former law enforcement
officer with many years of experience, reported to the INL section chief. To ascertain what
activities were underway at CSTC-A, this officer all too frequently had to obtain program
information directly from contractors at the RTCs and the MoI. This convoluted process may
correct itself with the arrival of a new INL representative at CSTC-A. However, in order to
standardize procedures, improve interagency communications, and better inform the INL staff in
Washington of police program policy discussions, the assessment team recommends that the INL
office at the embassy be placed under the supervision of a senior division chief other than the
deputy chief of mission. The INL office in the embassy and the INL representative at CSTC-A
should coordinate their activities under the direction of another division chief at the embassy.

Recommendation 7. Embassy Kabul should reorganize its International Narcotics and Law
Enforcement Affairs office to improve coordination, communication, program management, and
policy implementation. (Action: Embassy Kabul)




Interagency Assessment of Afghanistan Police Training and Readiness                          39
                 UNCLASSIFIED




           Page intentionally left blank




40   Interagency Assessment of Afghanistan Police Training and Readiness
                                        UNCLASSIFIED


Policy Support for Program Adjustments

         Despite the above-mentioned difficulties in coordination at the action level, cooperation
between the embassy and the U.S. military in Afghanistan at the most senior level has been
excellent. Proposed changes to expand the police program have been vetted at the embassy,
coordinated with Combined Forces Command – Afghanistan and the international community,
and cleared with the government of Afghanistan with minimal delay. Execution of these
initiatives, however, has frequently been stymied by contract and funding problems.

        The police program initiatives that required policy guidance from the Ambassador have
included the pay and rank reform initiative, the addition of a counterinsurgency role for the ANP,
and the necessary paramilitary training and weapons procurement for the counterinsurgency
mission. Moreover, the expansion of the rapid reaction force and the revised police fielding plan
implemented in 2006 required coordination with the Afghan government and coalition countries,
as did the proposed expansion of the mentoring program at the MoI and in the field.

        The U.S. Ambassador made the policy decisions to support these changes to the police
program. This collection of policy decisions should now be the subject of an omnibus message
to bring all participants up to date on where the police program is and what lies ahead. The
report should also address the implications for funding and for the role of the primary contractor.
A clear statement covering these points, with funding sources and benchmarks, should be written
at the embassy and distributed by cable. If possible, it should not be classified.

Recommendation 8. Embassy Kabul, in coordination with the Bureau of International
Narcotics and Law Enforcement Affairs, should publish an updated analysis and description of
the police training and readiness program policies including a description of the
counterinsurgency role of the Afghan National Police, the revised fielding plan, the dissolution
of the highway police, and coordination with donor nations and the United Nations Development
Program as the implementing agency for the Law and Order Trust Fund for Afghanistan.
(Action: Embassy Kabul, in coordination with INL)




Interagency Assessment of Afghanistan Police Training and Readiness                             41
                 UNCLASSIFIED




           Page intentionally left blank




42   Interagency Assessment of Afghanistan Police Training and Readiness
                                              UNCLASSIFIED


Equipment Procurement and Management

Procurement Chain

       CSTC-A’s procurement process adequately supports the needs of ANP’s 62,000
policemen. The process encompasses several programs that equip and sustain the ANP:

     •   Procurement of small items purchased from Afghan companies: “Afghan First,”
     •   Foreign military sales,
     •   DynCorp equipment, and
     •   International donations.

        CSTC-A maintains an adequate and competent staff of military logistics, procurement,
and contracting professionals in Afghanistan. However, procurement officers from the various
military branches have different tour lengths ranging from two months to a year. Frequent
turnover of personnel results in loss of institutional memory and steep learning curves for
replacement personnel. There have been instances where frequent equipment change orders (due
to the turnover of key procurement personnel) have required contract modifications, slowing
down the delivery and distribution of equipment.

       Contract specialists with authority to make local purchases of goods and services are
embedded within CSTC-A’s procurement organization. These individuals are key to supporting
opportunities for local economic expansion, increased entrepreneurship, and skills training for
the Afghan people through an Afghan First purchasing program. The Afghan First initiative,
endorsed by the 2006 London Donors Conference, intends to increase procurement of Afghan
goods for civilian and military activities.31 During FY 2005, CSTC-A purchased approximately
$512 million locally through Afghan First (not all of it for the ANP).

        CSTC-A operates a Foreign Military Sales Management and Tracking system for
monitoring controlled and uncontrolled equipment. Upon receipt of requirements for equipment,
the procurement section reviews the validity of each requirement and confirms that funds are
available. The section then prepares a memorandum of request and submits it through channels
to the U.S. Army Security Assistance Command for review. Letters of offer and acceptance are
prepared and submitted and funds released for purchase of goods.

        In the past, a DynCorp contract included an initial and one-time issue of uniforms and
nonlethal equipment at graduation to ANP students attending the training centers. Uniform issue
included uniforms, web belts, batons, and handcuffs. The program was terminated after 2004.
According to CSTC-A staff, the program was ineffective. After graduation many students sold
their equipment before they reached their duty station. CSTC-A is not currently tracking the
equipment issued to CTC/RTC students.


31
  As an example, the assessment team visited a clothing manufacturer in Kabul who has a $5 million contract with
the U.S. military to make 62,000 uniforms for the ANP. Three hundred workers are employed for this purpose.


Interagency Assessment of Afghanistan Police Training and Readiness                                          43
                                       UNCLASSIFIED

         The international community donated approximately $92.5 million to the ANP from FYs
2002-2006 to purchase weapons, ammunition, airlift communications, electronic equipment, and
vehicles. Weapons contributions include Hungarian AK-47/AMD-65 rifles (approximately $6.2
million) and German 9mm pistols ($1.3 million). Other international contributions include
Russian, German, and Japanese vehicles (approximately $52.2 million). Vehicle maintenance
has been a problem – the ANP has difficulty maintaining its donated Russian and German
vehicles. CSTC-A incorporated plans and resources for support at the maintenance facilities at
all five Afghanistan regional centers.

        Ninety-five percent of the equipment received by the government of Afghanistan is
nonstandard. Additionally, the donating country sometimes delays equipment delivery, citing
problems with customs paper work. As a result, receipt of equipment can take months, adding to
delays in getting equipment to the field. Equipment quality is also problematic. Other sources of
equipment exist, such as NATO-compliant and used American military equipment that can be
obtained to speed up the procurement process.

Equipment Fielding Plan

       The Tashkil and the CSTC-A Fielding Plan authorize the issue of ANP equipment. (See
Figure 9.) When combined, these documents form a rudimentary but effective table of
organization and equipment that is accepted by the international community and the Afghan
MoI. Together the Tashkil and the Fielding Plan establish the baseline requirement for
equipment procurement, distribution, and accountability.




44                        Interagency Assessment of Afghanistan Police Training and Readiness
                                                          UNCLASSIFIED




                                   Fielding Plan Overview
                    Equipment                      Construction              Mentors                    Training
                  1 AMD-65 & 1 9mm Pistol per   BDE HQ to support RES BDE    BCPs             9 Week (literate) Basic Course
                  1 RPK per 7                   BN HQ to support one CO HQ   BDE/BN HQ        5 Week (illiterate) Basic Course
                  1 RPG per 30                  CO HQ                        COs              2 Week Specialized Training Course
        Border/   1 OCIE Set per
                  1561 Vehicles 1 per 7
       Standby    1 Radio per 4 Vehicles
         Police   1 HF Manpack per PLT
       ABP/ASP    3 VHF Hand Radios per PLT
                  1 Radio per HQ
                  1 Radio per BCP
                  1 AMD-65 @ 1 9mm Pistol per BN HQ to support one CO HQ     BN HQ            9 Week (literate) Basic Course
       Highway    1 RPK per 7                   CO HQ                        COs              5 Week (illiterate) Basic Course
                  1 Shot Gun per 7                                                            2 Week Specialized Training Course
        Police    1 PRG per 30
         AHP      1 OCIE Set per
                  460 Vehicles 1 per 7
                  2 VHF Hand Radios per Vehicle
                  1 Radio per Vehicle
        Uniform
                  1 AMD-65 per 7                REG HQ, REG LOG CTRS         MOI              9 Week (literate) Basic Course
         Police   1 9mm Pistol per              Provincial HQ                                 5 Week (illiterate) Basic Course
                                                                             Regional
         AUP      1 Shot Gun per 7              District HQ                  Provincial
                  1 OCIE Set per                                             District
                  6836 Vehicles 1 per 7
                  1 Radio per Vehicle
                  1 Radio per District
                  1 VHF Hand Radio per 3          Vehicle Maint Phase1/2                                AMD-65      120
                                                  Weapons                             Ammunition      9mm           48
                       Support Contracts          Fuel                               Operational Load RPK           600
                                                  Commo Maint                          rds/weapon     RPG           10
                                                                                                        SHOT        25




                                      Figure 9. ANP Equipment Fielding Plan Overview
                                                     (Source: CSTC-A)

        As of June 1, 2006, the majority of ANP units possessed less than 50 percent of their
authorized equipment. CSTC-A projects that by September 1, 2006, the majority of units should
possess 80 percent or above of authorized equipment.32 Based on current funding and
memorandums of request, all ANP units should receive complete equipment issue, with the
exception of vehicles, by the first quarter of FY 2008. CSTC-A has requested additional funding
for accelerated vehicle fielding, but the current budget forecasts vehicle distribution for the lower
priority regions and units in FY 2009.

        To support the ANP’s operational security requirements, CSTC-A’s resource division
distributes equipment based on fielding priority. CSTC-A assigns fielding priority according to
each region’s security environment and the unit’s mission. CSTC-A has prioritized the regions
for equipment distribution as follows: South, East, West, Central, and North. Units are also
prioritized by type and mission as follows:

           1. Border police,
           2. Standby police,

32
     With a few notable exceptions – vehicles, radios, light machine guns, and rocket-propelled grenades.


Interagency Assessment of Afghanistan Police Training and Readiness                                                                45
                                        UNCLASSIFIED

        3. Uniformed police, and
        4. Highway police.

The fielding priority allows CSTC-A to ensure that phased equipment fielding is sourced to the
regions and units to best meet Afghanistan’s most pressing security requirements.

Equipment Logistics

        The Tashkil includes plans to enhance the ANP logistics systems to make it similar to the
ANA system. The Tashkil establishes a central logistics office, national logistics center, five
interregional logistics centers, and 34 provincial supply points. Logistics centers and supply
points will be located throughout the country and will be constructed in the next two years.
CSTC-A will either build new facilities or renovate existing facilities with funds included in the
FY 2008 budget.

        The central logistics office will be located in Kabul and will provide management level
planning and supply functions to interregional logistics centers and supply points. The office
will provide logistic services for nationwide procurement, pool and analyze needs for regional
logistic centers, and identify funding.

         The national logistics center will be colocated in Kabul with the central logistics office.
Other regional centers will be in Paktia, Balkh, Kandahar, and Herat. Among other things, these
facilities will:

     • Identify and report funds required for purchase of equipment and consumables;
     • Exercise supervisory control over storage, maintenance, and vehicle repair; and
     • Control and instruct supply points.

       The interregional logistics centers and 34 supply points will provide communications
equipment, weapons, vehicles, other equipment, and supply maintenance facilities for vehicles to
the ANP. Supply points will be located in all 34 provinces and will be subordinate to the
regional logistics centers. Supply points will support provincial commands, district commands,
uniformed, border, and standby police units. Supply points will also include car repair, weapons
maintenance, information technology support, and communications shops.

        Provincial commanders identify requirements for new and replacement vehicles,
weapons, and equipment, and submit these requirements to regional commanders, who in turn
report regional requirements to the respective regional logistics centers.

       Preparation for developing a national distribution system will require in-depth training
for Afghan personnel to maintain supplies and equipment at each center, development or hire of
a vehicle and maintenance workforce, and sustained mentoring of MoI logistics leadership.




46                         Interagency Assessment of Afghanistan Police Training and Readiness
                                          UNCLASSIFIED

Equipment Distribution

        CSTC-A controls distribution of all U.S.-funded equipment and the majority of
international donor equipment. This does not include equipment initially distributed by
DynCorp to students graduating from the CTC or RTCs. The other exceptions include 18,000
donated Czech AK-47s that the Afghan MoI national logistics center distributed directly to ANP
units and other items procured using MoI funds.

        CSTC-A item managers receive procured equipment shipments. The equipment is
inventoried and stored in Kabul warehouses. Based on fielding priorities, CSTC-A logistics
officers, national logistics center logistics officers, and the unit logistics officers conduct a
combined inventory of the equipment to be issued (fielded) to ANP units. The combined
inventory is recorded using Afghan and U.S. approved forms. CSTC-A resources division, the
national logistics center, and the unit logistical office retain copies of these issue records.

        Methods vary for equipment distribution. For weapons and ammunition distribution, unit
logistics officers generally draw equipment directly from the CSTC-A warehouse in Kabul. A
joint inventory is conducted and the unit logistics officer signs for the weapons and ammunition.
CSTC-A provides local hire trucks and shipping containers for transportation of the
weapons/ammo back to the unit’s provincial headquarters. If the unit does not provide an armed
escort, then Afghan highway police provides a transportation security escort. To date, all
equipment has arrived at the unit using this method. To transport furniture, organizational
clothing and individual equipment, and other equipment, either the units use their own trucks or
the U.S. contracts transportation for them. Mentors validate the unit equipment requirements;
CSTC-A will not issue equipment without validation. For units that do not have a mentor,
CSTC-A requires validation from mentors at the ministry level.

       CSTC-A distributes equipment to provincial headquarters for the uniformed police,
brigade headquarters for the border police, and to battalion headquarters for the standby police
and highway police. The unit headquarters is responsible for further distribution of the
equipment. Hoarding of equipment is reportedly a large problem within the ANP.

        Afghan police receive their initial issue of equipment as they arrive at their unit or from
their units as the unit receives it. Equipment lost to corruption after initial issue is not replaced.
However, vehicles and equipment are replaced if loss is caused by maintenance problems or
operational damage.


Equipment Maintenance

        For donated vehicles, CSTC-A divided the initial maintenance program into two phases.
Phase-I is a contract for vehicle services, windshield repair, and minor engine work. The
contract requires accountability reporting to CSTC-A on vehicles serviced. Contracted
maintenance exists in all five regions. The maintenance facilities employ Afghan mechanics,
Philippine supervisors, and western managers. From the regional facilities, contract teams are
sent to the provinces to conduct services and check accountability.



Interagency Assessment of Afghanistan Police Training and Readiness                                 47
                                        UNCLASSIFIED



        Phase-II is a contract for services, bodywork, and engine rebuilding. The contract allows
for repair until work exceeds 75 percent of the cost of the vehicle. A repair parts and history
tracking system is in place to examine trends and prevent fraud.

       Mentors play a key role in the maintenance process. Provincial mentors are in contact
with maintenance facilities to promote equipment induction into the maintenance system (many
Afghans are reluctant to place vehicles into maintenance for fear of permanent loss). When the
regional logistics centers are built, they will take over the vehicle maintenance function. The
vehicle maintenance contract includes training as a deliverable, and the contractor will train
Afghan supervisors so that eventually the ANP can assume the entire vehicle maintenance
function.

       There has been no award of a contract for weapons maintenance because no potential
contractor met the cost criteria of the statement of work. As a second effort, a contract for a
maintenance facility in Kabul that will send contract teams into the provinces was out for bid in
June 2006. According to the terms of this contract, only a national weapons maintenance
capability will exist until regional centers open. A communications maintenance contract is
planned for October 2006. The contract for radios includes a maintenance and warranty
provision, and the supplier was currently in country and making installation and repairs.

Equipment Accountability

       CSTC-A’s resource and logistics division and elements of the Afghan MoI provide a dual
chain process to monitor ANP equipment accountability. Logistics specialists from CSTC-A,
serving as equipment item managers, accept equipment as it is received from procurement and
donation sources.

        Prior to issuance, item managers inventory and store received equipment at the CSTC-A
warehouse in Kabul. Whenever equipment is issued, CSTC-A logistics officers, Afghan national
logistics center logistics officers, and unit logistics officers conduct a combined inventory that is
recorded on both Afghan and U.S. accountability forms. Each of these organizations maintains
copies of these records.

       The Tashkil and the CSTC-A fielding plan prescribe the priority and quantity of
equipment to be issued to the units. Equipment is tracked upon issue, and records are kept by
organizational unit showing equipment issued versus equipment authorized. Once the unit has
received its authorized equipment allowance, further issuance is withheld unless required due to
maintenance or operational loss. CSTC-A has budgeted for recapitalization funds after FY 2008.

        Until ANP regional logistics centers and provincial supply points are built, staffed,
trained, and equipped, U.S. accountability assurance (documentation) ends at the headquarters
element of the unit receiving equipment. U.S. mentors to the ANP play a key role in verifying
accountability below the provincial headquarters level for the uniformed police, the brigade
headquarters for the border police, and the battalion headquarters for the highway patrol and
standby police. U.S. mentors are present for joint inventories if equipment is delivered to the


48                         Interagency Assessment of Afghanistan Police Training and Readiness
                                       UNCLASSIFIED

unit headquarters, and they conduct periodic spot checks to ensure that equipment is accounted
for and maintained.

       Regional U.S.-contracted maintenance facilities – built, secured, and maintained by the
contractor – provide an additional means for assuring accountability for vehicles. Through the
vehicle services program, the maintenance facilities located in all five regions can account for
3,000 of the approximately 5,000 vehicles currently fielded to the ANP; they have not yet
serviced the entire fleet of vehicles.

        The current mentor program does not provide the coverage needed to support required
end-user accountability of all distributed ANP equipment. Because of reassignment of mentors,
the northern region lacks sufficient mentor capability outside of the RTC. Other regions have
inadequate numbers of mentors to ensure accountability below the headquarters level. In Kabul,
a single mentor is supporting 17 district police headquarters. In units where mentors are present,
there is no formalized program or system to guide them in ensuring accountability. Mentors are
not required to submit unit equipment accountability reports or to provide guidance on how to
conduct accountability checks. Additionally, the majority of mentors are contracted civilians,
and the security situation does not allow extended unescorted travel to assess equipment
accountability. In regions where the international community provides the police mentors, they
are not yet included in the effort to ensure equipment accountability. Some of the international
mentors send status reports to their own countries, but have not sent them to CSTC-A. CSTC-A
is developing a plan, coordinated with the MoI, to require police mentors and ANP logistics
officers to submit logistics reports that detail unit equipment accountability and readiness. The
U.S. mentors will use the transition readiness assessment tool. CSTC-A also intends to increase
the number of mentors to improve program effectiveness. Tying international police mentors
into this effort will significantly increase the reliability and coverage of ANP units and raise
accountability standards.

Recommendation 9. The Combined Security Transition Command – Afghanistan should
develop and implement a comprehensive method to verify Afghan National Police equipment
accountability and readiness that may include international and U.S. mentors. (Action: CSTC-A)

Logistics Internal Control Training and Mentoring

        Neither CSTC-A nor MoI have developed or implemented formalized internal control
training for police serving as logistics officers. Training in supply point management, armory
procedures, and maintenance management are vital to establishing accountability within the ANP
at the end-user level. Likewise, standard operating procedures facilitating an accountability
system at the ministerial level are essential. Accountability must be institutionalized within the
ANP to detect and prevent fraud, waste, and corruption.

Recommendation 10. The Combined Security Transition Command – Afghanistan, in
coordination with Embassy Kabul and in consultation with the Ministry of Interior, should
develop and implement an internal control training program and develop Afghan National Police
logistics officers to improve logistics flow and provide accountability safeguards for equipment.
(Action: CSTC-A, in coordination with Embassy Kabul)


Interagency Assessment of Afghanistan Police Training and Readiness                            49
                 UNCLASSIFIED




           Page intentionally left blank




50   Interagency Assessment of Afghanistan Police Training and Readiness
                                        UNCLASSIFIED


Looking Ahead

The Future of the Central Training Center and Regional Training Centers

        The importance and relevance of the CTC and RTCs should increase with the role and
duties that a professional and capable ANP will eventually play in Afghan society, assuming that
the national security situation becomes relatively stable. Like the National Police Academy, the
CTC and the seven RTCs play an essential role in shaping and developing the ANP. Beginning
with teaching the basic police courses, the training centers are evolving and preparing more
advanced and specialized police courses, which will periodically bring ANP personnel back for
supplemental training. The long-term relevance of the CTC and RTCs lies with the
supplemental and advanced police courses that are now coming on line to bridge the gap
between the basic course and advanced police work.

        The number of police recruits attending the basic police course should begin to decline,
but the basic police course will continue in some, if not all, training centers to keep pace with
ANP attrition. In addition, as the ANP seeks to move to a better qualified (i.e., more literate),
and, thereby, more versatile police force, the demand for better-trained recruits will increase the
expectations placed on the training centers. The first likely outgrowth of such increased
competency expectations of the police is that the five-week basic police course for illiterate
recruits will be superseded by a 13-week literacy and basic course, currently being tested at the
CTC. That course is designed to bring illiterate students up to a first grade reading level prior to
beginning the nine-week basic police course.

        As the ANP, with the assistance of international police mentors, begins to venture out
into proactive patrols and specialized investigative and enforcement activities, the need for a
deeper level of police training and specialized police courses will increase. The CTC and RTCs
recognize this need and are beginning to teach more specialized courses. An example is the five-
week FTO course, which teaches the FTO how to train police recruits in policing skills. Also,
there are the Transition Integration Program (TIP), which teaches more advanced management
and leadership skills. In addition, the training centers have begun teaching a two-week Tactical
Training Program, emphasizing the survival skills necessary to conduct effective police
operations in a low-intensity conflict environment.

       Plans are also moving ahead for prosecutors – and corrections officers as well – to
receive in-service training at RTC facilities. The facilities are intended to house training
programs throughout the justice and corrections sector.

Afghan Judicial System and the Afghan National Police

         An adequate assessment of the training and readiness of the ANP requires a brief
examination of the relationship between the ANP and the larger judicial system. While a
thorough review of the status of the Afghan judicial system is clearly warranted at some point,
this interagency OIG assessment was limited to the criminal justice infrastructure and its impact
upon the ANP. In summary, as the Afghan judicial system follows its slow path to relevance, it


Interagency Assessment of Afghanistan Police Training and Readiness                              51
                                         UNCLASSIFIED

has thus far failed to include the ANP as a full partner, relegating the ANP instead to a position
more akin to a governmental security force than as part of an integrated rule-of-law system.

        For the Afghan criminal justice system to become effective, it needs to have both a
professional police force and an independent judiciary (including modern detention facilities for
pretrial and post-conviction incarceration). Although the German and American governments
have trained more than 60,000 Afghan police to date, efforts to revamp the court system, led by
Italy, have not kept pace. There are too few courthouses or detention facilities and too few
qualified prosecutors, defense attorneys, judges, and court/detention personnel to staff them. The
resulting lack of capacity of a basic criminal justice infrastructure has adversely affected ANP
efforts to emerge as a legitimate public safety organization. In the assessment team’s interviews
with internal and external stakeholders, everyone agreed that rebuilding a strong and independent
judiciary is critical to the success of implementing rule of law, protecting human rights, and
gaining public confidence in government. However, the consensus of the same individuals was
that efforts to link the ANP with the fledgling Afghan judicial system have thus far been largely
ineffective. Thus, while the ANP is expanding its law enforcement operations and activities,
there is still very little legal structure in place to follow through with criminal prosecutions. In
this unenviable situation, the police are beginning to police, but the courts are not yet capable of
prosecuting, defending, judging, or housing those apprehended by the police.

        This lack of judicial resources has had a negative impact upon what should, by now, be
two core competencies of the ANP – making arrests and assisting in the prosecution of criminals.
The assessment team received abundant anecdotal evidence indicating that when the ANP
actually makes an arrest, the suspect is likely to arrange a private settlement on the spot with the
arresting officers. This pattern seemed to be especially well established outside of Kabul, where
the absence of the judicial structure, a strong preference for local tribal or religious resolution of
legal issues, and a general distrust of government still prevail.

        While the “bribe and release” activities by the ANP described above can be attributed
partially to a lengthy history of government corruption, it is also symptomatic of the police
having little judicial recourse against criminals. When presented with having to release an
accused criminal a day or two after an arrest due to a lack of a means to try him, it is not
unreasonable to expect an Afghan policeman instead to impose an immediate fine on the
offender in exchange for his freedom. Unfortunately, routine nonjudicial resolutions in criminal
cases only undermine the legitimacy of the ANP and the Afghan government, encouraging the
local populace to take such matters into their own hands. If and when the ANP and the judiciary
can begin to work effectively together as partners in the criminal justice system, these two
entities can also begin to act as checks and balances against corruption occurring in either house.

         The obstacles associated with reforming the Afghan judicial system should not be
underestimated. The 28 years of civil war, dictatorship, abrupt regime change, and resulting
chaos erased any semblance of an effective, fair, or even centralized judicial system. This
upheaval has left a confusing patchwork of conflicting and overlapping laws influenced
primarily by Islam, tribal law, Marxism, fragmentary western legal principles, and different
interpretations of all of the above by anyone wielding power. This confusion of applicable laws
is particularly troublesome for the ANP, which needs the type of guidance that only the judiciary


52                         Interagency Assessment of Afghanistan Police Training and Readiness
                                        UNCLASSIFIED

can provide in determining which laws apply in any given situation. Without this kind of
structured interaction and guidance, the ANP can only take their best guess when attempting to
negotiate local, tribal, religious, and criminal codes. For many Afghan citizens the judicial
system must seem to be just as corrupt and elitist now as it was under the various governments
that ruled Afghanistan during its troubled past. Integrating this fractured institution with the
ANP asks for a great leap of faith on the part of the police, especially when few incentives
appear to exist at this point to justify doing so.

        It is worth noting that attention is being given, and some progress is being made, in
implanting the values of rule of law – such as due process – that will assist the ANP in fulfilling
its charter. For example, legal and judicial training programs are being conducted by the United
Nations and other public and private organizations. The Justice Sector Support Project under
INL conducts training programs for the MoI and the Ministry of Justice to train judges,
prosecutors, and defense attorneys. Some of this training is to be conducted at the RTCs, which
have available capacity. In addition, a number of judicial infrastructure repair projects are
ongoing to provide the judiciary with the facilities to conduct legal business. An interim
criminal code has been developed and adopted. However, few judges, prosecutors, or defense
attorneys have been trained in enough basic criminal law to handle the cases that the Afghan
police are theoretically supposed to bring to them. Beyond that, programs thus far have only
scratched the surface on developing a rule-of-law culture that includes educational outreach to
the general population and effective anticorruption mechanisms.

Recommendation 11. Embassy Kabul, in coordination with the Bureau of International
Narcotics and Law Enforcement Affairs, should develop and submit for review in Washington a
plan that will link key components of the rule-of-law spectrum – police, prosecutors, defense
lawyers, judges, courts, and prisons – to the training and reform initiatives in order to build
capacity from the national to the provincial levels to ensure that these sectors advance the rule of
law in Afghanistan. (Action: Embassy Kabul, in coordination with INL)

Future of U.S. Government Role

        It is beyond the scope of this OIG assessment to make recommendations concerning
future levels of U.S. support for the ANP, but it should be clear that standing up the ANP is not a
turnkey project. It will require patience and perseverance on the part of donor countries.

       Even in the most optimistic case, there will be a long-term need for U.S and international
investment and budget support for Afghanistan after capacity-building and technical assistance
diminishes. The objective of a stable and effective Afghan government and a rule-of-law society
can only be reached – if at all – with a sustained international effort over an extended period of
years. Currently, program planning calls for a major U.S. effort through FY 2008, and continued
out-year support, notionally projected at $600 million per year, to sustain the ANP. The NATO
ISAF will assume overall responsibility for military operations in Afghanistan before the end of
2006, but the police training role of CSTC-A is expected to be relatively unchanged within the
new military structure.




Interagency Assessment of Afghanistan Police Training and Readiness                              53
                                        UNCLASSIFIED

        A pitfall in the American style of assistance, which applies to the police training program,
is the urge to move quickly and to take over if things do not move quickly enough. The police
training centers are led and managed by Americans – official and contract. The Afghans
appreciate the resources America brings to every program it has in Afghanistan. There are some
who believe the Afghans need to be more assertive in exercising their lead role in all aspects of
training and readiness for the police. In practice this is difficult, because the foreigners bring so
much to the table – and are assertive.

        Some police commanders claim they are in charge at RTCs or at police training centers in
Kabul, but it did not always appear that way to the assessment team. In too many cases, the
Afghan base commander only appeared after a welcome from an all American group and
briefings that excluded the Afghan commander. Similarly, Afghans rarely gave briefings on
police training, deferring instead to the Americans.

         Despite the reluctance of the Afghans to take control and the projected continued need for
international assistance, it is important that the coalition pursue policies that encourage Afghan
initiative and leadership in managing and leading the ANP training program. The transition to
Afghan control will take time and continued support and education. The embassy and CSTC-A
should coordinate in developing and articulating a strategy for transitioning U.S.-sponsored
programs and facilities to the MoI.

Recommendation 12. Embassy Kabul, in coordination with the Combined Security Transition
Command – Afghanistan and in consultation with the Ministry of Interior, should continue to
develop a comprehensive master plan with appropriate milestones for the transition of U.S.
government-sponsored programs and facilities for the Afghan National Police to Ministry of
Interior control and responsibility. (Action: Embassy Kabul, in coordination with CSTC-A)




54                         Interagency Assessment of Afghanistan Police Training and Readiness
                                               UNCLASSIFIED



Conclusion

       Success at achieving the intended end state for the APP will be subject to many factors,
some of which are well beyond the control of the police program (and outside the purview of the
assessment team):

        •    Defeat of the insurgency,
        •    Strengthen democracy in Afghanistan,
        •    Develop a strong economy, and
        •    Expand literacy and education programs.

        A Deputy Minister of Interior told the assessment team that for the police reforms to last
there must be a change in the way the police view their responsibilities to the public. He said,
“There must be a change in the culture of the police.” Those chosen to work in the police force
must show that they are morally respectable and that their mission is not to serve their own
interests but those of the population and the abstract ideal of the rule of law.

         For its part, the government will have to show that it is prepared to protect the civil rights
of its citizens through fair, prompt, and transparent legal procedures and impartial courts. The
government must also be ready to pay the police a living wage and provide them with reasonable
working conditions. It is a tall order, but it can be achieved with effective leadership and
adequate budgetary support.

         Afghan government officials, police commanders, trainers, and recruits were unanimous
in their praise of the U.S. engagement in Afghanistan and the police program in particular.33 The
reverse of that coin is the common fear that, without a substantial and extended U.S. presence in
Afghanistan, the country will revert to civil war and become a failed state once more.

       The environment where the ANP operate is strewn with obstacles to reform.
Nevertheless, it is the view of the assessment team that the police program in Afghanistan is well
conceived and is making progress in building a viable, self-sustaining ANP. There is more to be
done, and there are appropriate plans in place to strengthen and broaden the program. U.S. and
donor country support for the Afghan Police Program is a worthwhile investment that can help
provide national security and prevent the return to an environment of lawlessness.




33
  Their praise can be discounted to some degree by their desire to continue receiving training, equipment, and
employment through the U.S. government assistance program, but in the team’s judgment, it reflects their
fundamental calculation that the police and related programs are necessary for Afghan national security and
development.


Interagency Assessment of Afghanistan Police Training and Readiness                                              55
                 UNCLASSIFIED




           Page intentionally left blank




56   Interagency Assessment of Afghanistan Police Training and Readiness
                                       UNCLASSIFIED


Informal Recommendations

   1. Issue: Classroom lecture comprises a significant amount of the illiterate curriculum.
      The illiterate students’ inability to take notes degrades long-term retention of concepts
      and techniques taught, and inhibits their participation in the FTO Program.

       Recommendation: Combined Security Transition Command – Afghanistan should
       develop and issue illiterate student materials with descriptive diagrams and pictures to
       increase post-course subject retention and facilitate Field Training Officer Program
       execution.

   2. Issue: Although the RTCs are generally well run, and relations between American
      trainers and Afghan staff and students are good, the visit of the assessment team revealed
      some irritants: student complaints about substandard food, instructor complaints about
      the prohibition of cell phones on the compound (for security reasons), and – most
      seriously – complaints at one RTC that two American trainers acted disrespectfully to
      Afghan instructors. Disputes like these are inevitable. It was not obvious, however, that
      the RTCs had an adequate system for resolving them. The protesting instructors, for
      example, maintained that there is no point in complaining to the Americans in charge
      because they all stick together. Nor did they think it would work to take the problem to
      the Afghan commander of the facility, because he would be reluctant to raise such a
      sensitive matter with the American advisors.

       Recommendation: The Bureau of International Narcotics and Law Enforcement Affairs
       and Combined Security Transition Command – Afghanistan should design and
       implement a plan for Afghan administration, instructors, and students at police training
       centers to raise and resolve issues and complaints arising at their sites.

   3. Issue: Decisions affecting the course of the APP, and which have implications for the
      program’s contract, have been made without input of the contracting officer or the
      contractor’s management representative in Kabul. To improve the decision making
      process, especially regarding decisions that directly impact the terms of the APP contract,
      it is important that the contracting officer’s representative and a contractor management
      representative should be part of planning discussions. This action will make the decision
      making process seamless and will improve contract monitoring. Having a person
      knowledgeable of contract requirements at planning discussions will also expedite
      contract modifications, when they arise.

       Recommendation: Embassy Kabul and Combined Security Transition Command –
       Afghanistan should write and implement a procedure to include the local contracting
       officer’s representative for the Afghan Police Program contract, when assigned, and the
       contractor management representative in any planning discussions that could have an
       operational impact on execution of the contract or that could affect compliance with the
       deliverables of the contract.



Interagency Assessment of Afghanistan Police Training and Readiness                               57
                                       UNCLASSIFIED



     4. Issue: Ninety-five percent of police equipment received by the government of
        Afghanistan through international donations is nonstandard, and equipment quality is
        often questionable. Delivery of this equipment is frequently delayed because of problems
        with customs paper work. The use of NATO-compliant and/or American surplus military
        equipment could improve the procurement and delivery process.

        Recommendation: Combined Security Transition Command – Afghanistan should
        determine whether procuring North Atlantic Treaty Organization-compliant and/or
        American military equipment would improve the procurement and delivery processes and
        standardize Afghanistan National Police equipment and modify its procurement
        processes accordingly.




58                         Interagency Assessment of Afghanistan Police Training and Readiness
                                     UNCLASSIFIED



Abbreviations

ANA                         Afghan National Army
ANP                         Afghan National Police
APP                         Afghan Police Program
CJTF                        Commander Joint Task Force
CNP-A                       Counternarcotics Police – Afghanistan
COR                         Contracting officer’s representative
CRS                         Congressional Research Service
CSTC-A                      Combined Security Transition Command – Afghanistan
CTC                         Central Training Center
Department                  Department of State
FTO                         Field training officer
GAO                         Government Accountability Office
INL                         Bureau of International Narcotics and Law Enforcement Affairs
ISAF                        International Security Assistance Force
MoF                         Ministry of Finance
MoI                         Ministry of Interior
NATO                        North Atlantic Treaty Organization
NPA                         National Police Academy
OIG                         Office of the Inspector General
RCC                         Regional Command Center
RTC                         Regional Training Center
TF-Police                   Task Force Police
TIP                         Transitional Integration Program




Interagency Assessment of Afghanistan Police Training and Readiness                     59
                 UNCLASSIFIED




           Page intentionally left blank




60   Interagency Assessment of Afghanistan Police Training and Readiness
                                              UNCLASSIFIED


Appendix A: The Environment for the Police Program

        In briefings by the embassy and the military, the assessment team was repeatedly told
that there are elements in the Afghan situation that present special challenges to organizing,
training, and equipping a professional national police force. The relatively successful programs
in Bosnia and Kosovo do not offer a model that can be applied to Afghanistan. Afghanistan is
different; Afghanistan is more challenging.

        To begin, Afghanistan is one of the world’s “largest poorest” countries.34 The most
lucrative economic activity is illicit opium poppy production. (The next most lucrative is
economic activity generated by the foreign presence in the country.) There are promising long-
term prospects for investment in mineral exploitation, basic manufacturing, and commercial
agriculture, but for the foreseeable future Afghan economic development will struggle with a
primitive transportation infrastructure – mountainous, landlocked terrain, no railroads, very little
long-haul truck traffic – and undeveloped communications as well. Only the local elite has
telephones, television, or Internet access. Per capita income is $800 a year. Perhaps 70 percent
of the population – maybe more – is illiterate.

        Furthermore, the country has been at war for the past generation, and all of the fighting
has been within the country. Rule by the Taliban in the late ‘90s was especially ruinous; the
education system virtually shut down, women were driven from the economy, and the country
took a big step backwards to pre-industrial disorder. The Taliban offered safe haven to the al-
Qaeda plotters responsible for the events of September 11, 2001. By the time of the American
intervention in late 2001, Afghanistan was a failed state.

       It follows that the country has no history of effective governance from the center. Local
warlords, tribal leaders, and drug kingpins wield decisive economic and political power, and
assume decisive influence over the local offices of the institutions of the central government –
including the police. Thus, the national security forces face a great challenge in combating the
newly resurgent Taliban. In fact, the police themselves are often the targets of well-armed and
well-organized insurgents; more than 400 police were killed in 2005.35

        There is no tradition of community policing in Afghanistan, and policemen have not been
accorded high status or respect. They have been paid – if it all – less than a living wage (much
less than members of the army), and it is taken for granted that they will supplement their meager
salaries by accepting gifts from wealthy local figures or by shaking down ordinary citizens.
They make few arrests, in part because the criminal justice system is similarly dysfunctional.
Most ordinary policemen are illiterate, a situation that worsened under the Taliban. Many senior
police officers are also unqualified; they obtained their positions not by merit but through local
influence. Concepts of citizen rights and humane treatment of suspects are foreign to the Afghan
tradition.
34
  Afghanistan is about the size of Texas, with an estimated population of 32 million.
35
  The number the assessment team was given is 432 (source: NPA briefing). It should be noted, however, that the
number includes deaths from all causes, including not only targeted attacks on police employees but also vehicle
accidents and “green-on-green” and family violence. No breakout by cause is available.


Interagency Assessment of Afghanistan Police Training and Readiness                                           61
                                               UNCLASSIFIED



        The difficulties described above explain why the task of standing up the ANP is more
challenging than may have been appreciated at first. As the experience of the first couple of
years of coalition activity demonstrated, it has to include much more than training and equipping
police “soldiers.” It requires a transformation of the structure and culture of the police – and
even that may not be enough, if the larger security situation and culture in Afghanistan do not
also change and become more hospitable to a professionally competent and honest national
police force.

        Thus, in addition to training and equipping policemen, the history of police corruption
and incompetence (and low status) cannot be overcome unless rank and pay are radically
reformed. The inherited rank structure is top-heavy with senior officers, many of whom did not
obtain their high rank by merit. Similarly, the pay structure has been abysmally low – and flat;
even at senior levels it has been impossible to support a family on a police salary, and police
salaries were only a fraction of analogous ANA salaries. By July 2005, U.S. policy makers in
Afghanistan developed a plan for ANP pay and rank structure reform, and the MoI
enthusiastically embraced it. That plan was being implemented in phases at the time of this
assessment.

        An additional factor has increasingly influenced the police program. The worsening
security conditions in southern and eastern Afghanistan have required changes in the police
training program. Resurgent insurrectionist activities of the Taliban and other illegally armed
groups constitute a threat not only to domestic tranquility in general, but specifically to the police
themselves. In order to be effective, the police must be able to defend themselves from
organized attacks and they must be able to defend their areas of responsibility. In response to the
increased insurgency, some threat-based paramilitary skills have been added to the basic police
training curriculum. In addition, the government of Afghanistan has redeployed some policemen
to regions of the country where insurgents are most active. The ANP has an essential role in the
counterinsurgency effort that is crucial to the establishment of a viable national government.
These recent occurrences have caused the basic police training program to be extended and the
overall cost of training and other program expenses to increase at the fortress-like RTCs.36




36
   The training centers are constructed with blast-proof walls topped by razor wire. There are guard towers and tank-
trap vehicle entrances and sandbag bomb bunkers, in addition to pedestrian security checks at the entrances.


62                             Interagency Assessment of Afghanistan Police Training and Readiness
                                       UNCLASSIFIED


Appendix B: Police Training Curriculum

Police Curriculum Overview

        Entry-level courses for the ANP are offered through two different systems in
Afghanistan, depending on geographic location and the entry rank of the students. The National
Police Academy, supported by Germany, conducts training for ANP officers and non-
commissioned officers. The academy’s comprehensive, three-year training program for police
officers graduated its first class of 251 Lieutenants in August 2005. The academy’s 12-week
noncommissioned officer program trains supervisory officers and noncommissioned officers
(sergeants), including over 50 women as of June 2006. Training at the academy includes police
operations and tactics, traffic policing, management, and criminology. Graduates from the
academy are considered qualified to enter several disciplines within the Afghan government,
including the judiciary.

        The second and much larger program to train entry-level ANP personnel is offered
through the courses given at the Kabul CTC and the seven RTCs located in Kandahar, Herat,
Gardez, Mazar-e-Sharif, Kunduz, Jalalabad, and Bamiyan. The curricula at the CTC and seven
RTCs are thorough, relevant, and will prepare literate ANP personnel for police duties when the
courses are properly sequenced and timely, and when follow-on training opportunities are seized
by district police commanders. Key to the success of the entire ANP curricula is selecting
qualified students to attend each course and demanding that each student demonstrate
competence in the subject matter prior to graduation from each course.

        The police courses and supporting ANP training curricula at the CTC and RTCs are
professionally designed, technically and tactically correct, and relevant to the current security
situation in Afghanistan. This curriculum can be relied upon to prepare ANP personnel
adequately for basic police duties in Afghanistan. The training courses offered by the CTC and
RTCs alone can only realistically provide a basic platform for continued learning that must be
reinforced with a rigorous in-service training program and supplemented by an FTO program in
the districts.

        Individual courses taught at the CTC and the RTCs were observed to track the approved
curriculum closely. Some variations in course length and topics covered were observed at the
RTCs but appeared reasonably related to local and/or regional needs and requirements. Slight
curriculum modifications made in response to operational security issues enhanced the
survivability of the ANP students and were completely appropriate.

Basic Police Courses

        The following basic police courses are currently being taught at the CTC and the RTCs to
ANP personnel irrespective of whether they had prior police experience before they arrived at
the training facility. Although several of these courses are in transition, they will continue to
have a shelf life for many months or years until they are eventually replaced by updated courses
or supplemented with additional subjects.


Interagency Assessment of Afghanistan Police Training and Readiness                            63
                                        UNCLASSIFIED



Basic I is a nine-week entry-level police course for literate students designed to provide ANP
personnel with a basic understanding of accepted international police techniques and theory of
democratic policing. This course represents the preferred method of training ANP recruits. The
Basic I curriculum includes such topics as police officer values and ethics, democratic policing
and human dignity, criminal law and procedure, community policing, first aid, human rights,
hate crimes, crime scene management, security checkpoints, traffic control, criminal
investigations, interview techniques, note taking, and report writing. This course has been in
operation for over two years and is offered to uniformed, border, and highway police. A three
and one-half day firearms component was added to the Basic I Course in 2006, emphasizing
basic rifle handling and close-range shooting techniques.

         Limitations. The Basic I Course, coupled with students able to read and write, is
adequate, albeit minimally, to prepare a graduate for an entry-level position in the ANP. In
addition to covering the same general subjects as covered in the five week Basic II Course
discussed below, the nine week Basic I Course curriculum adds many additional subjects, covers
equivalent material in greater depth and is taught to a greater degree of sophistication and level
of difficulty. In short, considerably more is expected of the literate ANP recruits than of the
illiterate recruits and, conversely, the literate students are able to gain greater benefit from the
training. Each recruit is given a police training manual printed in the Dari language. Clearly, the
ability to review lessons prior to the courses being taught and/or review the material after
training is critical to the long-term retention of the material.

Basic II is a five-week entry-level police course for illiterate students designed to give ANP
personnel a beginning awareness of police techniques and principles of democratic policing.
This course follows the same general outline as the Basic I Course, but omits 32 classes that can
only be practically taught to literate students – such as report and note taking, obtaining witness
statements, and a more thorough study of criminal law and procedure. This course has also been
operating for approximately two years and has trained a large number of illiterate uniformed,
border, and highway police. The three and one-half day firearms component was also added to
the Basic II Course in 2006, emphasizing basic rifle shooting techniques. When it becomes
operational in the RTCs, the Basic III Course will replace this course.

        Limitations. The five-week Basic II Course is inadequate to prepare an ANP recruit for
assignment to anything resembling traditional western police duties. Illiterate ANP recruits can
only be expected to perform supplementary or ancillary police duties, such as security functions,
guard duty, and checkpoint security. The Basic II Course curriculum provides an illiterate police
recruit with a base of learning that can be supplemented at frequent points along his or her career
with additional training, not the least of which must be literacy training, that would create more
versatile and competent police officers, assuming that the ANP is able to make a long-term
investment in training.

Basic III will eventually replace the Basic II (five-week) course now taught exclusively to
illiterate students. It will combine the nine-week Basic I Course now taught to literate students,
but will be preceded by a five-week literacy skills course. Once the students in the five-week
literacy skills program have passed this component of the training, they will begin the nine-week


64                         Interagency Assessment of Afghanistan Police Training and Readiness
                                        UNCLASSIFIED

course curriculum now taught to literate ANP students. This new course is designed to channel
all incoming ANP students into a single common core skills program. This course is being
piloted now at the CTC and has successfully graduated three classes to date.

        The curricula for the Basic I, II, and III courses are well drafted and are roughly
comparable to portions of the curricula in use in many western police academies today. In
addition, the Basic I, II, III course curricula take into account many of the unique challenges and
issues inherent to training Afghan students as well as policing in Afghanistan. However, the
coverage and depth of the subjects, difficulty of material, testing and practical exercises, and the
overall length of the ANP Basic courses are considerably less rigorous than the academic and
physical requirements of the average western police academy.

         The three basic police courses for new ANP recruits also differ substantially in terms of
the expectations placed upon the recruits, due to learning abilities, and upon the instructional
methods that may be effectively employed. In general, the current Basic II Course for illiterate
students reflects the limitations in teaching students who cannot take notes, study outside of
class, or take written examinations to test their mastery of subject matter. Furthermore, because
illiterate students are unable to work with or create many of the staples of police work, such as
accident, incident, or crime reports, this course can only mention them in passing. The practical
exercises contained in the Basic II curriculum do serve to supplement the classroom training and
do provide reinforcement of the lessons taught in the classroom.

Advanced Police Training Courses

The Transition Integration Program (TIP) courses are advanced in-service police courses for
current ANP personnel and are now being taught at the CTC and the RTCs. Although some of
these courses are now in transition, they represent a necessary evolution in training existing ANP
personnel once they have graduated from a Basic I, II, or III course, in addition to some ANP
personnel who were previously appointed to the ANP without attending a Basic course.

TIP I – This course was the first advanced officer in-service course created for current members
of the ANP. It is designed for literate personnel and focuses upon the basics of democratic
policing, protection of human rights, nondiscrimination, and compliance with international law.
This three-week course is currently being taught at the CTC and RTCs and will be superseded
eventually by the TIP III course.

TIP II – developed to be a supplement to the TIP I course, providing existing ANP personnel
with beginning management courses, ethics classes, and operations classes that cover topics such
as vehicle searches, mine awareness, etc. This course is designed for literate personnel and
focuses upon the basics of democratic policing, protection of human rights, nondiscrimination,
and compliance with standards of international law. This three-week course is currently being
taught at the CTC and some of the RTCs. It will eventually be superseded by the TIP III course
when it becomes operational.

TIP III – a new five-week program designed to become a requirement for all in-service ANP
personnel, even if they have attended previous TIP I and/or TIP II courses. The major topics in



Interagency Assessment of Afghanistan Police Training and Readiness                              65
                                        UNCLASSIFIED

this course are criminal law, current operational police skills, interviewing techniques, forensic
awareness, crime scene investigation, and firearms. The principal difference in the TIP III
course over the previous TIP courses is the addition of a two-week leadership course designed to
accommodate the management level of the students coupled with a refined three-week
democratic policing course. The new TIP III course began as a pilot at the CTC in April 2006
and is scheduled to begin at the RTCs in late 2006.

        The TIP III course will be offered in three versions, each designed to accommodate the
rank and experience level of the police officers attending the course. Junior police officers will
attend the TIP III A course, which will focus on first line supervision skills and expectations.
Mid-level police officers will attend TIP III B, which will focus on mid-level management.
Senior level officers will attend TIP III C. Upon promotion to a new supervisory level beyond
their previous TIP III course, the officer will be required to complete the new level of TIP III
training or, in the alternative, complete at least the two-week management portion of the course
conforming to their new rank.

Additional Course Offerings

The CTC and RTCs also offer an array of other specialty courses to fit the needs of the ANP.
These courses include the following:

Border Police Course – This is a two-week course that is typically, though not always, taught as
a follow on to the basic police course. The course covers topics necessary to the operating
environment of policing at or near an international border. Topics covered in the class include
smuggling, narcotics recognition, hazardous materials, tracking, and checkpoint operation and
security. The border police course is separated into two courses, one for literate students and the
second for illiterate students, but both versions take two weeks and cover the same basic
subjects.

Criminal Investigation Division Course – This course is designed to teach entry-level ANP
criminal investigators the basics of investigating crimes and building a case for prosecution.
During this three-week class, criminal investigation division students are taught report writing,
crime scene management, evidence collection and preservation, interviewing and interrogation,
criminal intelligence collection, and specific types of investigations to include homicides,
narcotics, assaults, and theft. The criminal investigation division classes are limited to 20
students per class. Currently taught only at the CTC, a new Criminal Investigation Division II
course will supersede this course. It will then be exported to the RTCs.

Field Training Officer Program – The FTO course is comparable to the programs operating in
most western police organizations to mentor and evaluate new police officers. This five-week
course trains selected ANP officers in the technical aspects of policing, as well as in coaching
and mentoring skills. Upon return to their police stations, FTO graduates will be able to instruct
and evaluate new graduates of the ANP Basic Police Course when they begin their first
assignment. This course is taught at the CTC, as well as in some of the RTCs.




66                         Interagency Assessment of Afghanistan Police Training and Readiness
                                        UNCLASSIFIED

Firearms Training Courses – Firearms courses are now taught as a component part of basic
police and TIP courses. Firearms training is also conducted during in-service training classes at
the CTC and at several of the RTCs. The courses are constantly under revision to meet changing
needs and opportunities as standardized weapons and ammunition are becoming more available
to the training community in Afghanistan. The firearms courses will eventually take the form of
a multi-tiered training approach from basic firearms handling and shooting to advanced firearms
training, with each level building upon the previous level. Both handgun and rifle courses are
included in the multi-tiered plan. Firearms instructor courses and train-the-trainer courses are
also planned, as well as courses for district refresher programs.

Instructor Development Course – This course was designed for officers identified to have the
potential of instructing other ANP personnel. This course is a prerequisite for provincial training
officers, literacy instructors, and criminal investigation division instructors. Instructor
development course-trained instructors are also required to evaluate other instructors at the
CTC/RTCs to ensure that they meet the minimum level of competence to instruct.

Police Driving – This is a planned three-week course designed to teach a licensed ANP driver to
operate a police vehicle safely on patrol. The first two weeks of the course cover knowledge of a
vehicle and driving performance. The last week includes hands-on driving on a closed, secure
course with a one-on one student to instructor ratio. Difficulties in locating and constructing a
suitable driving course have delayed the rollout of this course.

Professional Standards Unit – Taught once at the CTC in late 2005, this internal affairs course
trained approximately 28 officers. More classes are expected when the MoI Internal Affairs
Division becomes operational and the internal affairs function branches out into the provinces.

Police Tactical Training Initiative – This six-day intensive course is designed to provide
current ANP personnel with a basic knowledge and practical application of tactical skills to
interdict criminal activity and survive in hostile environments. The primary target group for this
training is the border police and other police assigned to high-risk areas. The intent of the
training is to reduce the incidence of death and injury to the ANP and to increase safety and
security in the communities of Afghanistan with better-trained police officers. The class is
designed for a limit of 75 students to keep the instructor-student ratio low.




Interagency Assessment of Afghanistan Police Training and Readiness                            67
                 UNCLASSIFIED




           Page intentionally left blank




68   Interagency Assessment of Afghanistan Police Training and Readiness
                                        UNCLASSIFIED


Appendix C: Rank and Pay Reform

   Rank reform is executed through the MoI by a commission led by a ranking Afghan general.
The Rank Reform Commission is an all-Afghan board (advised by CSTC-A) that selects
qualified officers to staff the streamlined ANP rank structure. The rank reform process is both
objective and subjective in selection. The selection process takes place in three parts:

•   Part I: Written test (comprised of basic questions on human rights and policing values, plus
    essay questions). The test is a deliberate discriminator and eliminates the majority of
    candidates. For example, of the 2,200 colonels currently serving in the ANP as many as
    1,500 may be found noncompetitive for retention in grade based on test scores.
•   Part II: File Review. The commission then reviews the files of those candidates for retention
    at current rank that passed the written test, and with combined results of file review and test
    scores ranks the candidates numerically.
•   Part III: Human rights vetting, conducted by the U.N. Assistance Mission Afghanistan.
    Because of the lack of reliable records in this area, very few candidates fall out in this
    process.

   The final decision of the selection process is partly subjective among the candidates who
remain eligible for retention in grade. The top candidates will not automatically be selected.
Officers can potentially be selected from anywhere on the list based on political concerns and the
need for ethnic and regional diversity. The process is the same for all ranks.

    If an officer is not selected at his current rank, he may choose to compete for retention at the
next lower rank. An officer keeps moving down the rank chain until he is selected for that rank,
decides to retire, or reaches age limitations. The age limitations are: GEN – 65, COL – 55, LTC
– 52, MAJ – 50. If an officer is not selected for retention at any grade, decides to quit, or reaches
the age limit for the grade, he will receive one year of severance pay – based on the reformed
(much higher) pay rate of the officer’s last rank. This is expected to serve as an incentive for
noncompetitive officers (e.g., those who are illiterate) to retire or resign. Testing has been
completed for all ranks except for a few make-up tests necessary due to operational
requirements. As of the date of this assessment, however, only the top rank (General) had been
restructured.

    Pay reform is enacted as quickly as practical after rank reform.
       • Phase I. Scheduled to become effective June 24, 2006, it is based on the
           restructuring of the Generals from 319 to 120.
       • Phase II. Begins in June, scheduled for completion in September. Phase II of pay
           reform enacts the new pay scale for all officers, Colonel through 2nd Lieutenant, after
           the officers have been approved for their new rank.
       • Phase III. Scheduled to start in September 2006. Reformed payment of the enlisted
           police ranks.

    The U.N.-administered Law and Order Trust Fund for Afghanistan pays $75 million annually
for ANP salaries (based on 62,000 police authorized by the Tashkil). The fund also pays $25


Interagency Assessment of Afghanistan Police Training and Readiness                              69
                                        UNCLASSIFIED

million a year for food, and it will pay $11.2 million for the severance pay ($5.8 million for 2006
and $5.4 million for 2007) for those officers leaving the ANP through this process.

    The result of the rank reform initiative will be a streamlined ANP officer corps (reducing the
officer corps by approximately 4,500), selected by ability and performance, and a tiered rank
structure commensurate with the size of the ANP. Rank reform does not include a process for
follow-on promotions. CSTC-A is coordinating with the MoI to develop such a process,
projected to be in place by November 2006. After rank reform is complete, all newly
commissioned ANP officers will be graduates of the Afghan NPA.




70                         Interagency Assessment of Afghanistan Police Training and Readiness
                                      UNCLASSIFIED



Appendix D: Principal Interlocutors and Organizations
Visited

Department of State
Bureau of International Narcotics and Law Enforcement Affairs (INL)
Bureau of South and Central Asian Affairs (SCA)
Bureau of Administration (A)

Department of Defense
Office of the Secretary of Defense
Defense Security Cooperation Agency
U. S. Central Command – Tampa, FL

Government Accountability Office (GAO)

National Security Council

American Embassy – Kabul, Afghanistan
      Ambassador Ron Neumann
      Ambassador Richard Baltimore, Rule of Law Coordinator
      Alistair Cooke, INL Office Director
      Political-Military Office
      Doug Wankel, Drug Enforcement Administration
      U.S. Agency for International Development
      Regional Security Office

Combined Forces Command – Afghanistan
     Lieutenant General Karl Eikenberry, Commanding General
     Brigadier General Bill Chambers, Deputy

Combined Security Transition Command – Afghanistan (CSTC-A)
     Major General Robert Durbin, Commanding General
     Brigadier General Gary O’Brien (Canada), Deputy

Embassy of the Federal Republic of Germany – Kabul
     Ambassador Helmut Frick, Rule of Law

German Police Project Office, Kabul

Afghan Ministry of Interior
      Zarar Ahmed Moqbil, Minister of Interior
      General Abdul Hadi Khaliq, Deputy Minister of Interior/ Internal Security Strategy
      Lieutenant General Mohammed Daud-Daud, Deputy Minister – Counternarcotics



Interagency Assessment of Afghanistan Police Training and Readiness                        71
                                      UNCLASSIFIED



Afghan Ministry of Justice
      Gulam Sarwar Danesh, Minister of Justice

Afghan National Police
      Afghan National Police Academy
      Central Training Center, Kabul
      Regional Training Center
            Kandahar
            Jalalabad
            Mazar-e-Sharif
            Kunduz
            Bamiyan
      Kabul Police Station
            District 4
            District 5
            District 9

Provincial Reconstruction Team
      Kunduz (Germany)
      Bamiyan (New Zealand)

Narcotics Interdiction Unit Training Facility (Kabul)

DynCorp International (Kabul)

MPRI (Kabul)

      The OIG team directly observed training in progress at police training centers. The
team met with or interviewed numerous Afghan administrators, instructors, and students, and
American trainers and mentors at police academic and training centers and at Afghan
government ministries and police stations.

        With some exceptions interviews with Afghans were conducted with the assistance of
interpreters provided by the host organization.




72                       Interagency Assessment of Afghanistan Police Training and Readiness
                                       UNCLASSIFIED


Appendix E: Scope and Methodology

       This assessment was a self-initiated evaluation of the U.S. government effort to train and
develop the ANP. The assessment focused on the plans and programs in place for training the
ANP and an examination of the effectiveness of coordination and cooperation between those
Department of State and Department of Defense organizations responsible for developing,
implementing, and conducting police training. The assessment team did not examine the process
by which policy decisions were reached on the structure of the APP, nor the policy decisions
themselves.

        In accomplishing this assessment, the team examined Combined Forces Command -
Afghanistan and CSTC-A plans and related orders dealing with Afghan security training. The
team interviewed security policymakers and implementers of Afghan police training in the
United States as well as in Afghanistan. The team interviewed key members of the U.S.
Embassy in Kabul and CSTC-A, receiving numerous, comprehensive briefings from subject
matter experts within those organizations. The team observed basic, advanced, and specialized
police training at various sites throughout Afghanistan. The team interviewed members of the
German Police Program Office in Kabul, contract police trainers and mentors, Afghan
governmental officials, Afghan police instructors, Afghan police recruits, and veteran policemen.
During the course of fieldwork, the assessment team interviewed over 300 individuals involved
in Afghan police training. Appendix D provides a listing of the key policymakers and
organizations contacted during this evaluation.

      In April and May 2006, the assessment team researched available data in the Washington,
DC area. The team conducted fieldwork in Afghanistan between June 1 and June 22, 2006.

       Standard. The assessment team performed this assessment in accordance with the
standards established by the President’s Council on Integrity and Efficiency published in Quality
Standards for Inspections January 2005.

Prior Coverage

        During the past three years, the Congressional Research Service and the Government
Accountability Office have issued reports pertinent to the ANP. The Congressional Research
Service, a congressional support agency, does not make its publications directly available to the
public online. Unrestricted Government Accountability Office reports can be accessed over the
Internet at http://www.gao.gov.




Interagency Assessment of Afghanistan Police Training and Readiness                            73
                                     UNCLASSIFIED

Congressional Research Service

      CRS Report for Congress, “Afghanistan: Post-War Governance, Security, and U.S.
      Policy,” March 17, 2006.

      CRS Issue Brief for Congress, “Peacekeeping and Related Stability Operations: Issues of
      U.S. Military Involvement,” May 18, 2006.

      CRS Report for Congress, “The Cost of Iraq, Afghanistan, and Other Global War on
      Terror Operations Since 9/11,” June 14, 2006.

Government Accountability Office

      GAO Report No. GAO-05-575, “Afghanistan Security: Efforts to Establish Army and
      Police Have Made Progress, but Future Plans Need to Be Better Defined,” June 30, 2005.

      GAO Report No. GAO-06-885T, “Global War on Terrorism: Observations on Funding,
      Costs, and Future Commitments,” Statement of Mr. David M. Walker, Comptroller
      General of the United States, before the Subcommittee on National Security, Emerging
      Threats, and International Relations, Committee on Government Reform, House of
      Representatives, July 18, 2006.




74                      Interagency Assessment of Afghanistan Police Training and Readiness
                                        UNCLASSIFIED


Appendix F: U.S. Embassy Kabul Comments

                                                              September 22, 2006

   U.S. Embassy Kabul Response to the Department of State and Department of Defense
   Inspectors General Draft Interagency Assessment of Afghanistan Police Training and
                                   Readiness Program

PREFACE: Embassy Kabul believes that the recommendations from the Interagency
Assessment of Afghanistan Police Training and Readiness Programs will assist the Embassy and
CSTC-A in its efforts to oversee the creation of an effective, well-organized, professional, multi-
ethnic national police force. Afghanistan faces a significant security threat in the form of an
armed insurgency, particularly in the south and east of the country, as well as entrenched
warlords and narcotics traffickers. A well-trained, well-equipped Afghan National Police (ANP)
is critical to attaining a measure of security that will allow for reconstruction and development,
as well as deterring trafficking and criminality. There are still too few police in many key
districts to counter the insurgent presence, and those police who are at their posts are frequently
less well paid and equipped than their adversaries, who have access to funds from a variety of
terrorist and criminal sources including opium traffickers. The USG approach to police training,
mentoring, and equipping needs to be sufficiently flexible to respond to an evolving security
threat. For that reason, Embassy elements (Front Office, INL and POL-MIL), which have the
policy lead, work closely with CSTC-A, which has the implementation lead, to develop and
modify programs in response to the threat. All our organizational and contractual efforts must
also be tied to this goal. Unity of effort between civilian and military elements in the U.S.
mission is key to our success. Developing national Afghan institutions within the Ministry of
Interior and other Afghan ministries that can sustain and build on U.S. efforts is our shared long-
term objective.

Recommendation 1: Coordinate a document that clarifies the command relationship of various
ANP entities.
Action: Embassy
Comment: Command relationships within Ministry of Interior are generally well-defined and
can be described on a wire diagram. Post will prepare such a diagram and provide to OOIG.
Eventual Disposition: Embassy expects to comply fully with this recommendation.

Recommendation 2: Develop, staff, and implement a comprehensive international police mentor
program.
Action: CSTC-A.
Comment (CSTC-A): changes that fulfill this recommendation were implemented in September
2006. Please see separate CSTC-A response to DOD dated September 19, 2006.
Eventual Disposition: CSTC-A expects to comply fully with this recommendation.




Interagency Assessment of Afghanistan Police Training and Readiness                            75
                                       UNCLASSIFIED

Recommendation 3: Establish an independent Inspector General office in Ministry of Interior.
Action: Embassy.
Comment: Embassy will work with MoI and CSTC-A to ensure that an independent Inspector
General office is included in the MoI reorganization plan being developed by MoI with CSTC-A
assistance.
Eventual Disposition: Embassy expects to comply fully with this recommendation.

Recommendation 4: DOS to assign a qualified Contracting Officer’s Representative (COR) to
Embassy Kabul.
Action: Embassy
Comment: INL has agreed to send two contracting officers to post, who will act as CORs for
various INL contracts. One of the contracting officers has already arrived at post.
Eventual Disposition: Embassy expects to comply fully with this recommendation.

Recommendation 5: DOS should provide CSTC-A and Embassy Kabul, as executors of the
Afghan Police Program contract, with a copy of the current contract, Statement of Work, and
modifications.
Action: Department of State (A Bureau) and Embassy
Comment: The INL CIVPOL contract is a multi-year, multi-vendor, worldwide contract.
Neither Post nor CSTC-A needs a copy. INL/NAS Afghanistan needs/has copies of all Task
Orders/modifications that apply to Afghanistan. The contract will gain us no advantage. As for
sharing these with CSTC-A, INL Washington and the A Bureau should make that decision.
Eventual Disposition: Embassy will comply fully with this recommendation, when the A
Bureau sends the contract to post.

Recommendation 6: CSTC-A to develop an Memorandum of Agreement to describe the
conditions and process by which MPRI advisors at Ministry of Interior will be replaced by the
current contract holder – DynCorp.
Action: CSTC-A.
Embassy Comment: Embassy is working with CSTC-A to achieve the right mix of contractors
to promote reform within the Ministry of Interior and stands ready to assist in resolving this
matter. The Embassy, however, is not party to a contract with MPRI, so its role will be
tangential at most. See separate CSTC-A response to this recommendation.
Eventual Disposition: CSTC-A action.

Recommendation 7: Embassy Kabul should reorganize the INL Office and Embassy Kabul to
improve coordination, communication, program management, and policy implementation.
Action: Embassy
Comment: INL is in the process of reorganizing its section and expects this reorganization to be
completed by the end of the calendar year.
Eventual Disposition: Embassy expects to comply fully with this recommendation.

Recommendation 8: Draft an updated analysis and description of police training and readiness
program policies.
Action: Embassy



76                        Interagency Assessment of Afghanistan Police Training and Readiness
                                       UNCLASSIFIED

Comment: The Political-Military Section expects additional staff to arrive at post in late
September and early October, including a new Counselor for Political/Military Affairs. As soon
as that additional staffing has arrived, the Embassy will perform the analysis and prepare a
description of the training and readiness policies.
Eventual Disposition: Embassy expects to comply fully with this recommendation.

Recommendation 9: CSTC-A should develop and implement a comprehensive method to
verify ANP equipment accountability and readiness that includes international as well as U.S.
mentors.
Action: CSTC-A. Please see separate CSTC-A response to DOD dated September 19, 2006.
Comment: Embassy agrees that equipment accountability is critical to a well-run program.
Eventual Disposition: CSTC-A action.

Recommendation 10: CSTC-A to develop and implement an internal control training program
and develop ANP logistics officers to improve logistics flow and provide accountability
safeguards.
Action: CTSC-A action. Please see separate CSTC-A response to DOD dated September 19,
2006.
Comment: Embassy agrees that internal controls are vital to assure safeguards are in place.
Eventual Disposition: CTSC-A action

Recommendation 11: Develop a plan to link key components of the justice sector (prosecutors,
defense lawyers, judges, courts, and prisons) to [police] training and reform initiatives.
Action: Embassy.
Comment: The Regional Justice Sector Support Program (RJSSP) – formally the RJPIP – is
designed to ensure the linking of Police and the Courts (including at the training and mentoring
level). The first teams are already in country and will be deployed in the near future. INL has
already built RJSSP class/office/hooch spaces at some the RTCs and, security permitting, it will
be rolled out across the country within the year.
Eventual Disposition: Embassy expects to comply fully with this recommendation.

Recommendation 12: Develop a master plan for transition of U.S. government-sponsored
programs to Ministry of Interior control.
Action: Embassy, in coordination with CSTC.
Embassy comment; Within the next three months, CSTC-A will form a committee together with
MoI and Embassy/INL to identify milestones for transition of the police development program to
the MoI. The committee report is expected to be completed by summer 2007 and will be passed
to OOIG.
Eventual Disposition: Embassy expects to comply fully with this recommendation.


Editor’s Note: The order of recommendations in the draft sent for management comment
changed in the final document. The essence of the recommendations, however, remains largely
unchanged.




Interagency Assessment of Afghanistan Police Training and Readiness                             77
                 UNCLASSIFIED




           Page intentionally left blank




78   Interagency Assessment of Afghanistan Police Training and Readiness
                                     UNCLASSIFIED


Appendix G: Combined Security Transition Command –
Afghanistan (CSTC-A) Comments




Interagency Assessment of Afghanistan Police Training and Readiness   79
                 UNCLASSIFIED




80   Interagency Assessment of Afghanistan Police Training and Readiness
                                     UNCLASSIFIED




Interagency Assessment of Afghanistan Police Training and Readiness   81
                 UNCLASSIFIED




82   Interagency Assessment of Afghanistan Police Training and Readiness
                                     UNCLASSIFIED




Editor’s Note: The order of recommendations in the draft sent for management comment
changed in the final document. The essence of the recommendations, however, remains largely
unchanged.




Interagency Assessment of Afghanistan Police Training and Readiness                      83
                 UNCLASSIFIED




           Page intentionally left blank




84   Interagency Assessment of Afghanistan Police Training and Readiness
                                        UNCLASSIFIED


Appendix H: Bureau of International Narcotics and Law
Enforcement Affairs (INL – Department of State)
Comments


UNCLASSIFIED

TO:            OIG – Diana McCormick

FROM:          INL – Thomas A. Schweich

SUBJECT:       Discussion Draft OIG (DOS and DOD) Assessment of Afghanistan Police Training
               and Readiness Program, version dated August 29, 2006, #ISP-I-06

Overview

        INL is generally pleased with the results of the OIG assessment of the Afghanistan Police
Program (APP). In particular, I am pleased that the report addresses the challenges involved in
effecting reform in an insecure environment. Additionally, I agree with the conclusion that
greater progress on the Afghan justice system is a necessity, and I have made this a priority for
FY07 and FY08.

        However, there are a few aspects of the report that require clarification. Additionally,
while I am pleased with the general accuracy of the assessment, the report should, I believe,
more clearly delineate activities which are carried out by INL with oversight from CSTC-A and
those activities which are carried out directly by CSTC-A.

       I believe the final report should properly reflect the division of responsibility between the
two entities. Specifically, INL implements the training, mentoring and reform program; CSTC-
A directly implements the equipment and infrastructure support while providing oversight for
execution of all program activities.

        I understand that your team met with the INL program manager (Angelic Little-Turner)
and INL/CIVPOL office director (Steve Peterson) on September 12 to discuss these issues in
detail and that some of the clarifications listed below may have already been addressed.
However, I understand that Angelic and Steve promised to follow up on the conversation with
written comments and recommendations which are included in this memo.


Response/Comments on Formal Recommendations:

Formal Recommendation 1: Embassy Kabul, in coordination with CSTC-A and in consultation
with the Ministry of Interior (MoI), should coordinate a document that clarifies the command



Interagency Assessment of Afghanistan Police Training and Readiness                             85
                                        UNCLASSIFIED

relationships between RTC, Border Police, Standby Police, and Highway Police in relation to the
Regional and Provincial Commanders.

         INL Response: INL agrees that such a document would be useful and supports the
recommendation. However, the RTCs are not police training facilities, but regional INL training
facilities built with the intent of housing  all INL training programs in the region, including
justice sector and corrections sector programs in particular. As such, any document which
clarifies chain of command should take this fact into account.

Recommendation 2: CSTC-A, in coordination with INL and international partners, should
develop, staff, and implement a comprehensive international police mentor program for
Afghanistan. This program must coordinate international mentoring and training at local police
districts, both inside the station house and on patrol, and describe procedures to track equipment
and communicate issues, needs, and problems to CSTC-A and INL.

        Response: While such a program already exists, INL agrees that we need more staff and
has committed to increasing the current strength of the mentor program by more than 50% [from
252 mentors to 388 mentors]. An RFP was issued to DynCorp in August and we have already
completed evaluation of their response and provided funding to support the effort. The first class
of new mentors is scheduled to begin pre-deployment training in October. We have also
obtained some additional interest from our international partners (including Canada, Italy, and
the U.K.) to provide mentors. Though such support will likely always remain minimal compared
to the USG contribution, we continue to encourage other nations to contribute and coordinate
accordingly.

Recommendation 3: Embassy Kabul in coordination with CSTC-A should work closely with the
MoI to establish an independent Inspector General Office to investigate allegations of bribery,
embezzlement, fraud, and other forms of wrongdoing within the ANP, and to conduct audits and
inspections, as required.

        Response: INL agrees with the recommendation and notes that such efforts are
underway; INL is already working to establish such a function and is developing an associated
training program to be delivered in FY07.

Recommendation 4: The Department of State should assign a qualified Contracting Officer’s
Representative (COR) on a permanent basis to Embassy Kabul to improve program management
of the police training contract in support of the U.S. military command in charge of the police
training program, CSTC-A.

       Response: INL agrees with the recommendation and notes that a permanent position has
been created and is filled. In addition, INL will enhance the Government Technical Monitor
(GTM) staff to better support the in-country COR.

Recommendation 5: The Department of State should provide CSTC-A and Embassy Kabul, as
executors of the Afghan Police Program contract, a copy of the current contract, Statement of
Work, and modifications.


86                         Interagency Assessment of Afghanistan Police Training and Readiness
                                       UNCLASSIFIED



        Response: INL has already made arrangements to assign a permanent COR as well as
several GTMs in country to assist in contract management. Additionally, INL Washington has
provided INL Kabul with copies of the statement of work and modifications and these have been
shared with CSTC-A; the documents should have been available to the team to view in Kabul.
However, INL will work to ensure that a complete COR file is maintained appropriately at US
Embassy Kabul to improve access to such documents.

        Some confusion may exist regarding the terminology as the APP is covered by a task
order (rather than contract) which was issued competitively under the base CIVPOL contract.
We have, on several occasions, provided copies of the task order but not the CIVPOL contract as
it covers many other programs and is not specific to Afghanistan. The operating document is the
task order.

        Finally, the report incompletely describes the issues with the MOI mentoring program.
DOS has had a successful formal mentoring program at the MOI since 2004, which was
frequently discussed throughout 2004 and 2005 in the interagency. The mentors had been
assigned to the MOI for some time and had developed and implemented a Kabul-based
community policing program and new standard operating procedures (SOP) for the MOI, among
other successes.

       Until recently, it was not clear as to why there was a perception that some of these
mentors lacked the appropriate skills and INL had difficulty replacing the individuals until it
received better position descriptions. However, coordination on this process is much improved.

Recommendation 6: CSTC-A, in coordination with INL and Embassy Kabul, should develop a
formal Memorandum of Agreement (MOA) with Embassy Kabul to describe the conditions and
process by which MPRI advisors to the Afghan Ministry of Interior will be replaced by the
current contract holder – DynCorp International.

        Response: INL and CSTC-A have begun the process of replacing the MPRI mentors;
many of the individuals have been replaced already as of early September. Progress has not been
slowed by a lack of agreement over the process, but rather was initially hindered by a lack of
clear, articulated position descriptions from CSTC-A. Thus, while we feel an MOA articulating
the process is probably no longer necessary; a document listing all open positions with attached
position descriptions would greatly aid the completion of the effort.

Recommendation 7: Embassy Kabul should reorganize the INL office to improve coordination,
communication, program management, and policy implementation.

      Response: The Embassy plans to reorganize the entire operation which will include
changes in the INL offices.

Recommendation 8: Embassy Kabul should draft an updated analysis and description of the
police training and readiness program policies. The report should include a description of the
counter-insurgency role of the ANP, the revised fielding plan, the dissolution of the highway



Interagency Assessment of Afghanistan Police Training and Readiness                              87
                                         UNCLASSIFIED

police, and coordination with donor nations and the United Nations Development Program
(UNDP) as the implementing agency for the Law and Order Trust Fund for Afghanistan
(LOTFA).

       Response: INL agrees with the recommendation but requests that it be revised to involve
INL in the preparation of this plan.

Recommendation 9: CSTC-A should develop and implement a comprehensive method to verify
ANP equipment accountability and readiness that includes international, as well as U.S. mentors.

Recommendation 10: CSTC-A, in coordination with Embassy Kabul and in consultation with
the MOI, should develop and implement an internal control training program and develop ANP
logistics officers to improve logistics flow and provide accountability safeguards for equipment.

        Response (to 9 and 10): The recommendation should be revised to delete the reference to
use of international or U.S. mentors. Mentors are not assigned to the program for the purpose of
tracking, inventorying and maintaining equipment. To use them this way would be inconsistent
with the purpose of their deployment and outside the skill sets of many of them. We feel that
given their expertise in this area, CSTC-A and DOD are better positioned to take responsibility
for tracking, inventorying and maintaining equipment which they procure and distribute, to
include the development of the logistic training program recommended.

        The report states that DOD was provided a transfer of $600,000 from the ANA program
to the ANP program to procure weapons and equipment for police. That it is incorrect – they
were provided a transfer of $200,000,000 to support such purchases.

Recommendation 11: Embassy Kabul, in coordination with CSTC-A, should develop a plan and
submit it for review in Washington that will link the key components of the justice sector --
police, prosecutors, defense lawyers, judges, courts, and prisons -- to the training and reform
initiatives in order to build capacity from the national to the provincial levels to ensure that these
sectors advance the rule of law in Afghanistan.

        Response: INL does not agree with the recommendation. DOD’s role in the criminal
justice sector is primarily limited to police and infrastructure support. INL and Embassy Kabul
have developed a plan (already approved by the interagency deputies committee on August 30)
which does create the linkages recommended. Moreover, implementation of the first phase is
already underway. Additionally, the report should be corrected to note that the JSSP was
developed and is implemented by INL – not CSTC-A.

Recommendation 12: Embassy Kabul/INL, in coordination with CSTC-A, and in consultation
with the MoI, should continue to develop a comprehensive master plan, with appropriate
milestones, for the transition of U.S. government-sponsored programs and facilities for the ANP
to MoI control and responsibility.

        Response: INL agrees, but with the following reservations. Much of the transition plan
for the training and mentoring program is inherent in both programs’ design; for example, the


88                          Interagency Assessment of Afghanistan Police Training and Readiness
                                       UNCLASSIFIED

use of a “trainer the trainer” approach and similar Field Training Officer approach for the
mentoring program. Moreover, given the extent to which we are unsure whether the GoA will
have the resources to support DOD’s equipment and infrastructure program, it may be premature
to develop such a plan for this element. Thus while we agree such a plan is critical, it should be
a flexible document which reflects changing realities on the ground. The overall security
situation in the country will impact this transition as well.



Editor’s Note: The order of recommendations in the draft sent for management comment
changed in the final document. The essence of the recommendations, however, remains largely
unchanged.




Interagency Assessment of Afghanistan Police Training and Readiness                            89
                 UNCLASSIFIED




           Page intentionally left blank




90   Interagency Assessment of Afghanistan Police Training and Readiness
                                     UNCLASSIFIED


Appendix I: Management Response Letter from Assistant
Secretary of Defense for International Security Affairs
(ASD/ISA)




Interagency Assessment of Afghanistan Police Training and Readiness   91
                 UNCLASSIFIED




92   Interagency Assessment of Afghanistan Police Training and Readiness
                                     UNCLASSIFIED




Editor’s Note: The order of recommendations in the draft sent for management comment
changed in the final document. The essence of the recommendations, however, remains largely
unchanged.




Interagency Assessment of Afghanistan Police Training and Readiness                      93
                 UNCLASSIFIED




           Page intentionally left blank




94   Interagency Assessment of Afghanistan Police Training and Readiness
                                     UNCLASSIFIED


Appendix J: U.S. Central Command Comments




Interagency Assessment of Afghanistan Police Training and Readiness   95
                                     UNCLASSIFIED




Editor’s Note: The order of recommendations in the draft sent for management comment
changed in the final document. The essence of the recommendations, however, remains largely
unchanged.




96                       Interagency Assessment of Afghanistan Police Training and Readiness
                                        UNCLASSIFIED


GENERAL INFORMATION


Forward questions or comments concerning the Interagency Assessment of Afghan National
Police Training and Readiness to:

                                    U.S. Department of State
                                   Office of Inspector General
                                  Washington, D.C. 20520-6817

                                                 Or

                               Inspections & Evaluation Directorate
                 Office of the Deputy Inspector General for Inspections & Policy
                  Office of the Inspector General of the Department of Defense
                                      400 Army Navy Drive
                                   Arlington, VA 22202-4794
                                     crystalfocus@dodig.mil


Additional copies of this report are available at the above addresses or online at either
http://oig.state.gov or http://www.dodig.mil.




Interagency Assessment of Afghanistan Police Training and Readiness                         97
DEPARTMENT OF STATE OFFICE OF INSPECTOR GENERAL                                    If you suspect Fraud, Waste, Abuse, or Mismanagement in the Department of State, please contact:



       Vision: To effect positive change and promote sound management
       practices in the Department, Broadcasting Board of Governors,
       and foreign affairs operations abroad.




DEPARTMENT OF DEFENSE OFFICE OF INSPECTOR GENERAL                                If you suspect Fraud, Waste, Abuse, or Mismanagement in the Department of Defense, please contact:

      Vision: One Professional Team of Auditors, Inspectors, and        D E PA R T M E N T O F D E F E N S E
                                                                                                                      To report fraud, waste, mismanagement, and abuse of authority.
      Investigators, Inspiring by Paradigm a Culture of Integrity,
      Accountability, and "Intelligent Risk-Taking" Throughout the
      Department of Defense
                                                                        hot line                                      Send written complaints to: Defense Hotline, The Pentagon, Washington, DC 20301-1900
                                                                                                                      Phone: 800.424.9098         e-mail: hotline@dodig.mil       www.dodig.mil/hotline
